<html>
<title> - NOMINATIONS OF MITCHELL A. SILK, BRIAN D. MONTGOMERY, DAVID C. WOLL, JR., JOHN BOBBITT, AND PETER J. CONIGLIO</title>
<body><pre>[Senate Hearing 116-130]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 116-130


 NOMINATIONS OF MITCHELL A. SILK, BRIAN D. MONTGOMERY, DAVID C. WOLL, 
                JR., JOHN BOBBITT, AND PETER J. CONIGLIO

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                            NOMINATIONS OF:

     MITCHELL A. SILK, OF NEW YORK, TO BE ASSISTANT SECRETARY FOR 
           INTERNATIONAL MARKETS, DEPARTMENT OF THE TREASURY

                               __________

 BRIAN D. MONTGOMERY, OF TEXAS, TO BE DEPUTY SECRETARY, DEPARTMENT OF 
                     HOUSING AND URBAN DEVELOPMENT

                               __________

   DAVID C. WOLL, JR., OF CONNECTICUT, TO BE ASSISTANT SECRETARY FOR 
  COMMUNITY PLANNING AND DEVELOPMENT, DEPARTMENT OF HOUSING AND URBAN 
                              DEVELOPMENT

                               __________

 JOHN BOBBITT, OF TEXAS, TO BE ASSISTANT SECRETARY FOR ADMINISTRATION, 
              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                               __________

PETER J. CONIGLIO, OF VIRGINIA, TO BE INSPECTOR GENERAL, EXPORT-IMPORT 
                                  BANK

                               __________

                           NOVEMBER 20, 2019

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                Available at: https: //www.govinfo.gov /

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-482 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      MIKE CRAPO, Idaho, Chairman

RICHARD C. SHELBY, Alabama           SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      JACK REED, Rhode Island
TIM SCOTT, South Carolina            ROBERT MENENDEZ, New Jersey
BEN SASSE, Nebraska                  JON TESTER, Montana
TOM COTTON, Arkansas                 MARK R. WARNER, Virginia
MIKE ROUNDS, South Dakota            ELIZABETH WARREN, Massachusetts
DAVID PERDUE, Georgia                BRIAN SCHATZ, Hawaii
THOM TILLIS, North Carolina          CHRIS VAN HOLLEN, Maryland
JOHN KENNEDY, Louisiana              CATHERINE CORTEZ MASTO, Nevada
MARTHA MCSALLY, Arizona              DOUG JONES, Alabama
JERRY MORAN, Kansas                  TINA SMITH, Minnesota
KEVIN CRAMER, North Dakota           KYRSTEN SINEMA, Arizona

                     Gregg Richard, Staff Director

                Laura Swanson, Democratic Staff Director

                          Matt Jones, Counsel

                Brandon Beall, Professional Staff Member

           Beth Cooper, Democratic Professional Staff Member

           Megan Cheney, Democratic Professional Staff Member

           Corey Frayer, Democratic Professional Staff Member

                      Cameron Ricker, Chief Clerk

                      Shelvin Simmons, IT Director

                    Charles J. Moffat, Hearing Clerk

                          Jim Crowell, Editor

                                  (ii)

                            C O N T E N T S

                              ----------                              

                      WEDNESDAY, NOVEMBER 20, 2019

                                                                   Page

Opening statement of Chairman Crapo..............................     1
    Prepared statement...........................................    25

Opening statements, comments, or prepared statements of:
    Senator Brown................................................     3
        Prepared statement.......................................    26

                                NOMINEES

Mitchell A. Silk, of New York, to be Assistant Secretary for 
  International Markets, Department of the Treasury..............     5
    Prepared statement...........................................    27
    Biographical sketch of nominee...............................    29
    Responses to written questions of:
        Senator Brown............................................    95
        Senator Reed.............................................    99
        Senator Menendez.........................................   100
        Senator Warren...........................................   101
Brian D. Montgomery, of Texas, to be Deputy Secretary, Department 
  of Housing and Urban Development...............................     7
    Prepared statement...........................................    49
    Biographical sketch of nominee...............................    51
    Responses to written questions of:
        Senator Brown............................................   103
        Senator Moran............................................   107
        Senator Reed.............................................   107
        Senator Menendez.........................................   108
        Senator Warren...........................................   109
        Senator Cortez Masto.....................................   112
        Senator Jones............................................   115
        Senator Sinema...........................................   116
David C. Woll, Jr., of Connecticut, to be Assistant Secretary for 
  Community Planning and Development, Department of Housing and 
  Urban Development..............................................     8
    Prepared statement...........................................    67
    Biographical sketch of nominee...............................    68
    Responses to written questions of:
        Senator Reed.............................................   117
        Senator Warren...........................................   118
        Senator Cortez Masto.....................................   120
        Senator Jones............................................   121
John Bobbitt, of Texas, to be Assistant Secretary for 
  Administration, Department of Housing and Urban Development....    10
    Prepared statement...........................................    74
    Biographical sketch of nominee...............................    76
    Responses to written questions of:
        Senator Brown............................................   122
        Senator Reed.............................................   123
        Senator Warren...........................................   123

                                 (iii)


                                                                   Page

Peter J. Coniglio, of Virginia, to be Inspector General, Export-
  Import Bank of the United States...............................    12
    Prepared statement...........................................    86
    Biographical sketch of nominee...............................    88
    Responses to written questions of:
        Senator Brown............................................   125
        Senator Warren...........................................   127
        Senator Cortez Masto.....................................   128
        Senator Sinema...........................................   130

              Additional Material Supplied for the Record

Letter submitted by the Mortgage Bankers Association in support 
  of Brian D. Montgomery.........................................   131
Letter submitted by the National Association of Realtors in 
  support of Brian D. Montgomery.................................   132




                                  (iv)

 
 NOMINATIONS OF MITCHELL A. SILK, BRIAN D. MONTGOMERY, DAVID C. WOLL, 
                JR., JOHN BOBBITT, AND PETER J. CONIGLIO

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2019

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:27 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mike Crapo, Chairman of the 
Committee, presiding.

            OPENING STATEMENT OF CHAIRMAN MIKE CRAPO

    Chairman Crapo. All right. This hearing will come to order.
    This morning, the Committee will receive testimony from 
five nominees who have been selected to serve in key roles 
within the Department of Treasury, the Department of Housing 
and Urban Development, and the Export-Import Bank.
    Going down the line, we have: Mitchell Silk, to be 
Assistant Secretary for International Markets at the Department 
of the Treasury; the Honorable Brian Montgomery, to be Deputy 
Secretary of Housing and Urban Development; David Woll, to be 
HUD Assistant Secretary for Community Planning and Development; 
Jack Bobbitt, to be HUD Assistant Secretary for Administration; 
and Peter Coniglio, to be Inspector General of the Ex-Im Bank.
    I want to welcome all of you. I appreciate you putting up 
with our having a markup first. It was actually a shorter thing 
than we usually have when we do markups, and so we did not hold 
you as long as we might have. I also commend each of you for 
your commitment to public service and your willingness to 
accept these positions.
    I see friends and family behind you, and I welcome them 
here today as well.
    Mitchell Silk has served with distinction as Acting 
Assistant Secretary of the Treasury for International Markets 
since July and as Deputy Assistant Secretary for International 
Affairs since 2017.
    He is a leading expert in Chinese law and finance, who is 
fluent in both Mandarin and Cantonese, and spent 15 years 
working in Greater China as a partner with the law firm Allen & 
Overy.
    Since joining Treasury, Mr. Silk has been a key voice on 
trade negotiations, energy and infrastructure finance, export 
credit, and financial services.
    Brian Montgomery is no stranger to this Committee, having 
served as Federal Housing Commissioner under Presidents Bush, 
Obama, and Trump, and having testified before us on seven other 
occasions on matters relating to housing and housing finance.
    During his previous tenure at the helm of the Federal 
Housing Administration, he provided steadfast leadership 
through one of the most trying times that housing markets have 
ever seen.
    During his current tenure at FHA, he has overseen the 
return of FHA's insurance fund to its strongest financial 
position since fiscal year 2007, while continuing to provide 
affordable home ownership opportunities to tens of thousands of 
first-time home buyers each year.
    Since January of this year, Mr. Montgomery has also served 
as Acting Deputy Secretary, charged with overall management of 
day-to-day operations of the Department.
    Once confirmed as permanent Deputy Secretary, the 
Department will continue to benefit from his deep institutional 
knowledge, expertise, and dedication to making our housing 
programs work better.
    Since November 2018, David Woll has served as Principal 
Deputy Assistant Secretary for HUD's Office of Community 
Planning and Development, where he has overseen HUD's homeless 
assistance, disaster relief, and block grant programs.
    He has dedicated his entire career to public service, 
including as an Assistant U.S. Attorney, Deputy General Counsel 
at HUD, and Senior Policy Adviser to the Governor of New 
Jersey, where he served as the State's compliance director for 
Superstorm Sandy and other relief efforts.
    With direct experience both administering CPD programs and 
implementing them as a State partner, Mr. Woll is well equipped 
to continue leading CPD forward.
    Jack Bobbitt currently serves as Deputy Assistant Secretary 
for Housing Operations at HUD, where he oversees procurement, 
human resources, facilities, communications, and IT systems for 
the Office of Housing.
    He previously served as Special Assistant to Commissioner 
Montgomery during the Bush administration and has also served 
in a variety of executive roles in the private sector, 
including both large corporations and start-up ventures.
    If confirmed, Mr. Bobbitt would combine his keen 
understanding of HUD operations with decades of private sector 
experience as he oversees HUD facilities, procurement, 
staffing, training, and performance management.
    Finally, Peter Coniglio would bring a wealth of relevant 
experience to the Ex-Im Bank IG office, having served in the 
Office of Inspector General at the General Services 
Administration since 2006, in addition to other distinguished 
service within the Department of Justice, the Department of 
Treasury, and the Senate Judiciary Committee.
    In meetings with my office, Mr. Coniglio has committed to 
running a ``fully functioning, independent, regular order'' 
operation at the Ex-Im Office of Inspector General.
    In only a few months in office since their Senate 
confirmation, the new Ex-Im President Kimberly Reed and her 
colleagues on the board have already taken significant steps to 
bring greater transparency and accountability to the Bank. This 
has not gone unnoticed by many of us on the Committee. Having a 
new Senate-confirmed Inspector General in place will only serve 
to strengthen those efforts.
    Each of these nominees are highly distinguished and well 
qualified to serve in the roles to which they have been 
nominated.
    I look forward to working with each of you in the months 
ahead to advance the aims of your agencies and to expand our 
economic growth.
    Thank you once again for your willingness to serve and for 
appearing before the Committee today, and I encourage my 
colleagues to expeditiously confirm all five of you so that you 
can quickly get to work for the American people.
    Senator Brown.

           OPENING STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Mr. Chairman, for holding the 
hearing on the nominations of Mr. Silk, Mr. Montgomery, Mr. 
Woll, Mr. Bobbitt, and Mr. Coniglio. Welcome to you and your 
families and guests. I am glad you are here.
    President Trump nominated Mitchell Silk to be Assistant 
Secretary for International Markets at Treasury. His portfolio 
is broad--from energy and infrastructure issues, to trade 
negotiations with China and global financial risks at the 
Financial Stability Board.
    China has recognized the global demand for updated 
infrastructure investments and is making significant 
investments in infrastructure around the world through its Belt 
and Road Initiative. However, concerns have arisen--about the 
terms provided, the failure to use local workers, and the 
quality of the work completed.
    The appetite for Belt and Road makes clear that we need to 
increase support for investments abroad in order to provide the 
world with a market-based alternative to China, one that 
respects workers and is focused on sustained, local growth and 
not on the expansion of Chinese influence.
    U.S. leadership in infrastructure development requires 
acting to address the threats we face from climate change. If 
confirmed, Mr. Silk, in spite of the Trump administration's 
comments and recent actions, I hope you will focus on those 
efforts.
    We will also hear from Mr. Coniglio, the nominee to be 
Inspector General at Ex-Im Bank. A confirmed Inspector General 
will help ensure transparency and accountability in the Bank's 
operations. Mr. Coniglio's nomination is not the only Ex-Im 
nomination that we need to act on.
    The full Senate needs to vote on the nominations of Paul 
Shmotolokha and Claudia Slacik whom our Committee has 
previously reported with strong bipartisan support. We need a 
full Ex-Im board and a qualified Inspector General to provide 
oversight and guidance as Ex-Im approves deals that create jobs 
in Ohio and around the country. We know that the undermining of 
Ex-Im by the Administration and by the Majority Leader has made 
that challenge much greater. And, Mr. Coniglio, I was pleased 
you said in your statement that Senator Grassley taught you 
that whistleblowers, the time-honored, bipartisan nature of 
whistleblowers, that they are to be respected and taken 
seriously. Thank you for adding that.
    Finally, three of today's nominees have been nominated to 
positions within HUD, where they are currently serving.
    Mr. Montgomery has been in front of this Committee before, 
currently serves in a confirmed role as Assistant Secretary for 
Housing--Federal Housing Commissioner and has been nominated to 
serve as Deputy Secretary.
    Mr. Woll has been nominated to be Assistant Secretary for 
Community Planning and Development and has experience in 
monitoring compliance with the CDBG Disaster Relief, which he 
would oversee if confirmed.
    Mr. Bobbitt has been nominated to serve as Assistant 
Secretary for Administration, where he would be responsible for 
overseeing hiring policies, procurement, and operations.
    HUD provides housing assistance to 4.7 million low-income 
families and supports homeless services. It also enforces the 
Fair Housing Act, insures some 8.1 million mortgages, and 
administers billions in assistance to communities hit hard by 
natural disasters.
    HUD's policies affect every community, big and small. A 
home is a foundation for opportunity. It is usually the biggest 
item in a family's budget. Hardworking families and the 
Nation's most vulnerable members rely on these critical 
programs and protections.
    Unfortunately, President Trump's administration does not 
seem to understand that. When 11 million families spend more 
than half their income on housing, we need to be doing more. 
The Trump administration has year after year proposed to slash 
HUD's budget and eliminate programs like CDBG and HOME that 
make affordable housing development possible.
    The Administration has released a document questioning 
long-established best practices to address homelessness. Just 
last week, the Trump administration removed the widely 
respected head of the interagency council responsible for 
coordinating Federal agencies' homelessness efforts.
    HUD wants to undermine the enforcement of the Fair Housing 
Act based on disparate impact and to weaken protections for 
transgender individuals who need shelter.
    Last week, HUD promoted a political appointee with a 
history, a very well known history, of sexist and racist 
writings to the second highest position at Ginnie Mae, a 
nonconfirmable position, which guarantees--as you know, Ginnie 
Mae guarantees $2.1 trillion in mortgage-backed securities.
    And just a few months ago, HUD proposed changes to the FHA 
program that would make it harder for millions of families to 
afford to buy a home.
    Each of these actions is troubling, each on its own. Taken 
together, it is pretty clear that not only is the President not 
doing anything to help families afford a home, but they are 
actively making it harder, thereby betraying American families.
    Both Mr. Woll and Mr. Montgomery have played a role in some 
of these policies and decisions. I expect to hear more about 
that in today's hearing.
    These positions play a critical role in many of the 
economic issues that our country faces. Thank you.
    Chairman Crapo. Thank you.
    At this point I would like to put each of you under oath 
and then ask you one question, so would you please stand and 
raise your right hands? Do you swear or affirm that the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God?
    Mr. Silk. I do.
    Mr. Montgomery. I do.
    Mr. Woll. I do.
    Mr. Bobbitt. I do.
    Mr. Coniglio. I do.
    Chairman Crapo. And do you agree to appear and testify 
before any duly constituted committee of the Senate?
    Mr. Silk. I do.
    Mr. Montgomery. I do.
    Mr. Woll. I do.
    Mr. Bobbitt. I do.
    Mr. Coniglio. I do.
    Chairman Crapo. Thank you. That was an ``aye'' on all parts 
on each question.
    With that, let us proceed. We will proceed in the order you 
were introduced, and I encourage you to remember the 5 minutes 
that has been allocated to you for your introductory remarks. 
Your written testimony is made a part of the record.
    Mr. Silk.

  TESTIMONY OF MITCHELL A. SILK, OF NEW YORK, TO BE ASSISTANT 
SECRETARY FOR INTERNATIONAL MARKETS, DEPARTMENT OF THE TREASURY

    Mr. Silk. Chairman Crapo, Ranking Member Brown, and 
distinguished Members of the Committee, it is a great honor to 
appear before you today as the President's nominee to be 
Assistant Secretary of the Treasury for International Markets. 
I thank the President and Secretary Mnuchin for their trust and 
confidence in me. I thank very much all of your good offices 
for the courtesies afforded to me over the past few weeks. If 
confirmed, I look forward to working with all of you on the 
critical issues within Treasury's International Markets 
portfolio.
    As a backdrop to my remarks, I wish to acknowledge my 
family, including my extraordinary grandparents and parents who 
are no longer with us. It is at times like this that the 
feeling of loss are tremendous and tempered only by their 
immense inspiration that I will detail in a moment. My amazing 
wife, Yocheved Rivka, is here with me today. She serves our 
community as a physician's assistant in a family practice in 
Brooklyn while looking after our eight children and doting on 
our three grandchildren. She is a constant source of 
inspiration, support, and strength. She is joined by her 
father, Rabbi Duvid Orlander, and four of our eight children: 
Meshulam, Naftuli Chaim, Mordechai Dov, and Tauba Raitza.
    I owe the privilege of appearing before this distinguished 
Committee to my family and to the opportunities that this great 
country has afforded us. My grandparents immigrated to this 
country from hardship and persecution in Eastern Europe. Their 
life experiences were chilling. My maternal grandfather, the 
guiding light of my life, grew up in abject poverty, witnessed 
Cossacks brutally murder members of his family, and struggled 
to cope with the extermination of his family in the Holocaust. 
For my family, this country represented freedom, security, and 
immense opportunity. They worked hard as tradesmen and 
laborers.
    Their life challenges enforced their commitment to 
improving the lives of others. My grandfather spoke with pride 
of his communal leadership, including his part in successfully 
lobbying for one of Chicago's first projects to provide 
subsidized housing for over 1,000 impoverished European 
families during the Great Depression. My father was proud to 
have served in the Second World War in the Pacific Fleet. His 
brother, my uncle, served in the Army National Guard. My mother 
assisted the lives of thousands over her 40-year nursing 
career.
    Family circumstances required me to go to work full time 
when I was 13. My first job was in a Chinese restaurant as a 
dishwasher, then prep cook, and then after busboy and finally 
waiter. My hard work yielded fluency in Chinese and sufficient 
earnings to fund college and law school. I was the first one in 
my family to graduate from college.
    I enjoyed an extraordinary and exciting career in law for 
more than 30 years in both the United States and in Asia. I 
specialized in large and complex cross-border investment, bank 
regulatory and finance matters, focusing heavily on energy and 
infrastructure. Like my grandparents and parents, service to 
the community was a priority for me. While in private practice, 
I served for over a decade as chairman of a nationwide pro bono 
legal services network of more than 400 lawyers.
    I joined the Treasury Department as Deputy Assistant 
Secretary for Investment, Energy, and Infrastructure in 2017. 
Over the last 2 years, I have had the honor of advancing our 
country's interests alongside Treasury leadership and our 
exceptionally dedicated career staff.
    Treasury's International Markets portfolio is critical to 
advancing U.S. interests in global financial and investment 
markets. We lead engagement in international regulatory bodies 
and coordinate trade policy with respect to financial services. 
We also oversee Treasury's technical assistance program, which 
assists our allies globally. In addition, the portfolio covers 
the critically important areas of U.S. participation in 
development financing, including implementation of the BUILD 
Act and trade finance globally. And we lead Treasury's efforts 
to promote private capital solutions in energy and 
infrastructure finance to support responsible global growth, a 
critical initiative which I designed and have overseen since 
joining the Department.
    My work at Treasury and in private practice has given me a 
deep appreciation for how these international economic issues 
have a significant impact on the lives of individual Americans. 
It has been and will continue to be an honor to come full 
circle and play my part to ensure the continued freedom, 
security, and immense opportunity that this country afforded my 
family. If confirmed, I will work closely with this Committee 
to continue these essential tasks.
    I thank you for the opportunity to appear today, and I am 
very happy to answer questions.
    Chairman Crapo. Thank you, Mr. Silk.
    Mr. Montgomery.

   TESTIMONY OF BRIAN D. MONTGOMERY, OF TEXAS, TO BE DEPUTY 
     SECRETARY, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Montgomery. Thank you, Chairman Crapo, Ranking Member 
Brown, and Members of the Committee. I am honored to appear 
before you today to be considered for the position of Deputy 
Secretary at the Department of Housing and Urban Development.
    I would like to take a moment to thank my family, including 
my wife, Katy, who is on business travel today, but I do have 
my two children, Emily, age 13--whom I am probably blocking 
out, I suspect--and Thomas, age 10, who will quickly tell you 
he will be 11 next month. I want to also thank my parents and 
my sisters for their love and support over the many years. My 
Dad passed away right before my confirmation hearing in 2017, 
but my Mom, who is the daughter of Mexican immigrants, is 
watching at her home in Houston on line.
    I also want to express my gratitude to the President and to 
Secretary Carson for their faith and confidence in me as I 
worked as FHA Commissioner over the last 19 months.
    I would say working with Secretary Carson over that time 
has provided me with a new understanding of what it truly means 
to serve.
    Mr. Chairman, I was humbled by the trust this Committee 
placed in me to serve as FHA Commissioner from 2005 to 2009 and 
again in this Administration. I have always believed that the 
work we do at HUD and FHA transcends party lines.
    During my tenure at HUD, which has spanned 6 years, three 
Administrations, and both parties, I am proud of the work we 
did to preserve FHA as a viable option for home buyers.
    Just last week I was pleased to present HUD's Annual Report 
to Congress regarding the status of FHA's Mutual Mortgage 
Insurance Fund for fiscal year 2019.
    The MMI Fund is as sound as it has been in over a decade 
with a capital ratio of 4.84 percent. FHA remains a key source 
of financing for first-time and minority home buyers, with 
hundreds of thousands of individuals and families achieving the 
dream of home ownership, and nearly a third of all endorsements 
supporting minority home buyers.
    One way we have sought to strengthen FHA has to been to 
clarify regulatory expectations so that responsible lenders can 
confidently and fully participate in the program.
    For example, market participants' concerns about uncertain 
and unanticipated False Claims Act liability for underwriting 
defects has led many depository lenders to largely withdraw 
from FHA lending. To address these concerns, in October HUD and 
the Justice Department signed a Memorandum of Understanding for 
cases brought under the False Claims Act against FHA lenders. 
This MOU provides a framework to apply remedies for FHA lender 
violations in a consistent, uniform, and appropriate way. In 
addition, FHA updated its certifications and what we refer to 
as the ``defect taxonomy'' to better assess the appropriate 
remedies for program violations. This suite of reforms should 
make affordable FHA mortgages more accessible to qualified 
borrowers and reduce risks within the FHA program.
    We are also working to expand and strengthen loss 
mitigation options for borrowers. Under my tenure, FHA made 
permanent the ``Disaster Standalone Partial Claim'' for 
disaster victims who are rebuilding or buying another home 
following a disaster. This option covers up to 12 months of 
missed mortgage payments with an interest-free second loan on a 
recovering family's home. And, by the way, this is a program 
that we deployed in Puerto Rico last year to help FHA 
borrowers.
    In recent years, FHA has been asked to play a greater role 
in long-term recovery after natural disasters. If confirmed as 
Deputy Secretary, I want to give you my pledge that we will do 
everything we can to help the people impacted by the hurricanes 
that ravaged so many States, from my hometown of Houston to 
North Carolina and, yes, Puerto Rico, as well as the most 
recent wildfires in California.
    In 2017, for the first time in the history of HUD's 
administration of disaster recovery, Congress provided 
mitigation funds as part of a CDBG-DR appropriation. To deliver 
on this mission, I have visited Puerto Rico to meet with the 
island's leadership and with the officials at Vivienda who are 
responsible for administering this grant. We are committed to 
ensuring the record funding going to Puerto Rico reaches the 
people in need and helps them recover and build a more 
resilient future.
    I further note that HUD has one of the most tenured 
workforces in the Federal Government, and its head count has 
decreased by more than 50 percent over the last 25 years. It is 
a priority that we have the right workforce to fulfill HUD's 
important missions in the years to come, and we are working 
hard to make that happen.
    Finally, HUD's housing finance reform plan, released in 
September, calls for additional improvements to FHA's policies, 
technology, and operations, and we look forward to working with 
the Congress as we move that forward.
    I want to thank you again for your time this morning. I 
look forward to answering your questions.
    Chairman Crapo. Thank you, Mr. Montgomery.
    Mr. Woll.

    TESTIMONY OF DAVID C. WOLL, JR., OF CONNECTICUT, TO BE 
  ASSISTANT SECRETARY FOR COMMUNITY PLANNING AND DEVELOPMENT, 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Woll. Thank you, Chairman Crapo, Ranking Member Brown, 
and distinguished Members of this Committee. I am deeply 
honored to be nominated to serve as Assistant Secretary of the 
U.S. Department of Housing and Urban Development's Office of 
Community Planning and Development.
    If I may, I would first like to introduce my family, who 
are the most important people in my life. I am happy to 
introduce my wife of 23 years, Phoebe Cabell Woll. I would also 
like to introduce my three children: my oldest son, Tripp, who 
is a senior at Pennsylvania State University; Ted, who is a 
junior at the University of Wisconsin; and my youngest, Bryce, 
who is a sophomore in high school.
    I would also like to introduce my Dad, David Woll, who has 
been my mentor both as a father and as a lawyer. My Dad and my 
Mom, who I wish was still with us today, taught me the 
importance of faith, values, and treating every person, 
regardless of their background or circumstances, with 
compassion, dignity, and respect.
    My brother, Mike, is also here with his wife, Anita Woll. I 
cannot thank them enough for their tremendous support. My 
sisters Eileen and Francie were unable to travel here today, 
but they too have always been very supportive of me, and I am 
profoundly grateful for their love and encouragement.
    My path to nomination and this confirmation hearing has 
been somewhat untraditional. After graduating from the 
University of Maryland and the University of Virginia School of 
Law, I spent most of my earlier career as an investigator and 
prosecutor working to protect victims of crime.
    At the Securities and Exchange Commission, I was a senior 
counsel in the Enforcement Division, where one of my largest 
matters was a securities fraud case involving a securities 
boiler room that targeted unsophisticated and elderly 
investors.
    At the U.S. Attorney's Office for the District of Columbia, 
I spent 3 years prosecuting domestic violence and sexual 
assault cases against people who victimized some of the most 
vulnerable people in the community, including children, 
indigent women who had been trafficked, and young people who 
were LGBTQ. I also served as a Federal prosecutor in Brooklyn, 
where I prosecuted business and securities fraud cases in which 
the victims were financially devastated due to the greed of 
others who took advantage of them. This included prosecuting a 
$100 million Ponzi scheme and a Hurricane Katrina fraud case.
    Following Superstorm Sandy in the fall of 2012, I had an 
opportunity to do something completely different, which was to 
work on disaster recovery for the State of New Jersey. That was 
an important moment in my career because it ended up being my 
first exposure to HUD and the dedicated career staff who work 
for its Office of Community Planning and Development. It struck 
me then, as it does now, that CPD genuinely cares about 
disaster victims, the unsheltered homeless, and others in need 
and works incredibly hard to help grantees navigate through 
very stressful and difficult circumstances. I feel particularly 
privileged to be considered to lead this incredibly talented 
team.
    There is always, however, room for improvement, 
particularly when it comes to better serving the States and 
communities who are our grantees. With this in mind, I have 
several priorities if I am confirmed.
    First, CPD needs to continue to strengthen its stewardship 
of the Disaster Recovery Program by making sure we have the 
right number of people in the right places. To that end, we are 
in the process of doubling the size of the disaster recovery 
division and out-stationing staff closer to our grantees. This 
will help us to deliver grant assistance in a more efficient 
manner and give us greater flexibility to respond to the unique 
needs of each State and grantee.
    Second, CPD needs to work with other agencies, States, 
municipalities, and the private sector to develop strategies to 
target unsheltered homelessness. This effort is similar to what 
we did when we targeted veterans' and family homelessness, 
which led to decreases in both numbers.
    Third, our many field offices are on the front line and 
play a critical role in forging relationships with our 
grantees. We need to reshape our field operations in order to 
improve communications between headquarters and the field and 
to give the field offices greater flexibility to react to the 
changing needs of our grantees.
    Members of the Committee, I have always worked to help 
those who are vulnerable and most in need. If confirmed, I 
commit to you that I will continue to do so as the Assistant 
Secretary of CPD. Thank you.
    Chairman Crapo. Thank you, Mr. Woll.
    Mr. Bobbitt.

TESTIMONY OF JOHN BOBBITT, OF TEXAS, TO BE ASSISTANT SECRETARY 
FOR ADMINISTRATION, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Bobbitt. Chairman Crapo, Ranking Member Brown, and 
distinguished Members of the Committee, it is a privilege to 
appear before you this morning. I am deeply honored that 
President Trump has nominated me to serve under Secretary 
Carson as the Assistant Secretary for Administration at the 
Department of Housing and Urban Development.
    Before I begin, I want to express my deepest appreciation 
to my beautiful wife, Jian, who is here today. Jian has been, 
and continues to be, a bedrock of support, the love of my life 
for me and our family while I serve at HUD. She is here today 
from our hometown of Houston, where she has maintained our 
residence to provide care for my mother and father, George and 
Bette Bobbitt.
    I want to thank my father, a Navy veteran of World War II, 
and my mother, who worked for the British Army Staff here in 
Washington, D.C., They met at a USO dance during the war and 
have been married for 72 years. At 97 and 96 years old, they 
are the source of my passion to succeed personally and 
professionally. I also want to acknowledge my grandfather, Dr. 
Clarence Charles Hastings, a prominent veterinarian and World 
War I veteran who instilled in me strong values and a work 
ethic required to succeed. And, finally, I want to thank my 
stepdaughter Xaioting, Mike Fei, sister Robin, and our extended 
family, friends, and colleagues for their love and support.
    During my 37 years of business experience, I have served in 
diverse executive roles in the private and public sectors 
responsible for operations, finance, sales, and marketing for 
large multibillion-dollar corporations to startup ventures.
    My Government and public service journey began in 1984 as a 
volunteer White House Lead Advance Representative. I served in 
that capacity under the George H.W. Bush and George W. Bush 
administrations, and I have served in that role in the Trump 
administration. I also served as the Director of Strategic 
Communications at HUD from 2006 to 2009 and had the privilege 
to return to HUD in February 2019 as the Deputy Assistant 
Secretary for Operations, managing human resources, procurement 
and facilities within the Office of Housing, HUD's largest 
office. During my time in this position, I have established 
core values, an open-door policy, met with many of my 
employees, restructured the management team, and increased our 
FEVS score card of leadership by 23 percent and overall 
employee satisfaction by 17 percent. We also created and 
launched a comprehensive Employee Development Training Program.
    My knowledge of HUD and Government operations has given me 
a sound perspective on what is required to achieve success in 
the work ahead, both from the organization and from myself. 
Additionally, my relevant skills and extensive experience 
obtained from the private sector will aid in implementing 
improved and more efficient processes.
    I believe that a leader's management philosophy is the 
cornerstone for the organization's direction, vision, goals, 
and success. As a leader, I am committed to the development and 
advancement of three things: people, processes, and 
performance.
    I believe you manage work, but you lead people. I believe 
in an employee-centered organization that strives to achieve 
high morale with a positive, accountable culture that develops 
individuals for career growth and opportunities.
    Next is the efficiency and effectiveness of the processes 
that are adopted. A focus must be placed on clearly identifying 
and streamlining processes and policies.
    Finally, my emphasis is on performance. I believe that an 
organization that properly sets standards of measurement, 
creates attainable goals, and empowers staff to achieve them is 
bound for high performance.
    So with these as my guiding philosophy, here are the 
priorities I will focus on if confirmed as HUD's Assistant 
Secretary for Administration:
    First, I will implement a culture and set of core values as 
well as ``career-long'' employee training that will foster 
employee development and succession planning.
    Second, I will focus on improving the hiring process by 
working to decrease the time it takes to hire and reduce the 
risks associated with critical vacancies.
    Third, I will introduce measures to decrease the prolonged 
process of procurement and ensure qualified oversight of 
existing contracts.
    And, finally, the modernization of HUD's hiring, training, 
and procurement IT systems to enhance accuracy, accountability, 
and the ability to effectively measure performance.
    Mr. Chairman, distinguished Members of the Committee, thank 
you again for your consideration of my nomination. I welcome 
your questions.
    Chairman Crapo. Thank you, Mr. Bobbitt.
    Mr. Coniglio.

 TESTIMONY OF PETER J. CONIGLIO, OF VIRGINIA, TO BE INSPECTOR 
        GENERAL, EXPORT-IMPORT BANK OF THE UNITED STATES

    Mr. Coniglio. Thank you, Mr. Chairman, Ranking Member 
Brown, and Members of the Committee, for inviting me to appear 
before you today. It is my great honor and privilege to be the 
President's nominee to be the Inspector General of the Export-
Import Bank of the United States. I am very humbled to be 
considered for this position.
    With me today is my wife of 42 years, Jamie Wright 
Coniglio. She is my rock. Over the last 30 years, I spent 5 
years on Capitol Hill, highlighted by my work as a line counsel 
for Senator Grassley's then Judiciary Subcommittee staff and 
about 14 years with the Departments of Justice and the 
Treasury. Since June of 2006, I have been in the Office of 
Inspector General at the General Services Administration, 
working for three Inspectors General. Each of them tutored me 
on how to be an effective Inspector General.
    In addition to my present position with GSA OIG, I headed 
for almost 4 years the OIG's Compliance Office, reporting 
directly to the GSA Inspector General. From there, I stood up 
the GSA OIG's first-ever audit report writing and editing team. 
As the lead editor, I oversaw the production of the OIG's audit 
reports--OIG's first line of communication with its agency. Our 
team's objective was to ensure that an audit report was 
readable, objective, and usable.
    Throughout its history, Ex-Im's unique mission has helped 
finance the export of American goods and services in order to 
support American jobs.
    If confirmed, my goal will be to provide Ex-Im's leaders 
with timely and objective findings and understandable and 
usable recommendations regarding the agency's programs and 
operations and to inform Ex-Im's leaders of any fraud, waste, 
or abuse the OIG uncovers.
    If confirmed, I commit to overseeing rigorous 
investigations to pursue the facts wherever they may lead.
    As a Senator Grassley alum, he set the standard for me, 
among many, when it comes to Inspectors General and educated me 
on the key role an OIG plays in an agency's success.
    Senator Grassley also taught me that whistleblowers are to 
be respected and taken seriously.
    If I am confirmed, I will ensure that the Office of 
Inspector General at Ex-Im has an open-door policy and provides 
every opportunity for those who want to report on information 
that they may have on any waste, fraud, or abuse occurring at 
Ex-Im. If I am confirmed, the Office of Inspector General will 
see to it that whistleblowers receive every protection afforded 
to them by the law.
    I am also well aware of Congress' role in the responsible 
use of taxpayers' resources. If confirmed, I intend to maintain 
a strong and open line of communication with this Committee, 
the Senate, and the House of Representatives.
    Mr. Chairman, my time with GSA OIG has attuned me to the 
role that a fully functioning, objective, and independent 
Office of Inspector General plays in an agency's success. I 
call this ``regular order.''
    I understand Ex-Im has strong supporters and strong 
detractors. As you know, Ex-Im's Board of Directors has only 
recently returned to regular order with a quorum.
    This is all the more reason to return Ex-Im's Office of 
Inspector General to its own regular order. Since the Ex-Im 
Inspector General position became vacant in June of 2014, the 
OIG's dedicated professionals have supported its continued 
operations. But Senate-confirmed leadership in an independent 
Office of Inspector General is more likely to have greater 
influence on Ex-Im and more likely to have the confidence of 
Ex-Im's proponents, as well as its detractors.
    My approach as Inspector General would not be to act as Ex-
Im's adversary or its enemy. Instead, I would intend to foster 
a healthy, productive, and open professional relationship with 
Ex-Im.
    In conclusion, Mr. Chairman, if I am fortunate enough to be 
confirmed, I firmly believe that I am prepared to take the helm 
of the Office of Inspector General at the Export-Import Bank of 
the United States, and I look forward to the challenge.
    Thank you for your time today, and I will be pleased to 
respond to any questions you may have.
    Chairman Crapo. Thank you very much, Mr. Coniglio.
    I would like to again state that I believe that each of 
you, all five of you, are very superbly qualified and 
outstanding candidates for the positions to which you have been 
nominated and that I intend to support you. I do not want you 
to feel slighted, but I do not have any questions for you 
except for a couple that I want to give to Mr. Montgomery.
    Mr. Montgomery, my questions for you are--first, I commend 
your work on HUD's recent blueprint for housing finance reform 
and your staff's ongoing work with mine on that topic. As you 
know, it is a top priority of mine to ensure that our housing 
finance system protects taxpayers, increases the role of 
private capital, and promotes broad accessibility to mortgage 
credit, and FHA and Ginnie Mae play a key role in that.
    I mainly want your commitment to continue working with me 
on this and then would invite any comments you would like to 
make on housing finance reform.
    Mr. Montgomery. Well, thank you very much for that 
question, Chairman Crapo, and your comments. The Administration 
worked very hard with our friends at Treasury and elsewhere to 
put together what we think is meaningful housing finance 
reform. As you will recall, in the report we have listed some 
of the activities we would like to undertake in both 
legislative and administrative categories, including some 
things that we have been considering and working on that we 
felt strongly we should include just to signal to the world 
that we are working on some things in an effort of 
transparency.
    I can speak obviously for FHA and for Ginnie Mae. It is 
important as the pure Government home-buying program that has 
been the hallmark of first-time home buyers since 1935, we want 
to help ensure that FHA is there in good times and bad. That is 
not to say--the news of last week was very welcomed with a 
capital ratio the highest it has been since 2007. In our 
report, we also mention some of the challenges and headwinds 
that we face. We have a strong housing market today, but it is 
tough to predict the future. So we want to make sure that we 
are in a strong capital position, not knowing what the future 
may hold, to make sure that we have, you know, a margin safely 
above the 2 percent capital ratio that Congress requires.
    It is also no secret that we have some serious technology 
deficiencies that actually date back to my first tenure as FHA 
Commissioner in the Bush and Obama administrations. The good 
news is Congress has given us the first downpayment toward a 
project we think will be $80 to $90 million in the form of a 
$20 million downpayment. I can say that our staff working with 
our CIO work extremely hard to bring FHA's technology into this 
century, and we are going to see--we are working on some pilot 
programs right now and proofs of concept, but we look forward, 
with the input from Congress and from our stakeholders, to 
putting some significant heft into our current antiquated 
systems.
    Chairman Crapo. Well, thank you, and I do appreciate your 
attention to this and look forward to continuing to work with 
you on it as we weave our way through the process of getting a 
solid housing reform put into place.
    My last question to you is--and I also want to commend you 
for your work alongside DOJ to help establish clear rules of 
the road to clarify the extent to which FHA lenders can be 
liable for harmless or immaterial errors under the False Claims 
Act. What has been the early response from lending institutions 
to the recent FHA announcement? And do you expect to see more 
lenders returning to the program?
    Mr. Montgomery. Thank you again, Mr. Chairman. We have had 
some good signals from the industry, including one rather large 
depository that would like to get back into the FHA in a more 
meaningful way. I will not revisit what happened in the last 8 
to 10 years on that, but as you know, a lot of depositories 
fled the FHA program. In 2010, almost half of our originations 
came from depositories. Last fiscal year it was about 13.5 
percent.
    As I frequently say, I do not take sides in this 
discussion. I just think we need to find a better balance so we 
are not too extended with independence nondepository 
institutions, or for depositories for that matter. So, again, 
not taking sides, I just want to try to find a little bit 
equilibrium, balance between the two.
    This one particularly large depository had asked us if they 
could help provide some training, which we will take as a 
positive sign.
    I do want to add that the traditional stakeholders were 
very supportive of what we were doing, but we also heard a lot 
of statements of support from the National Housing Conference, 
the Center for Responsible Lending, the National Community 
Reinvestment Coalition, who rightfully view this also as an 
issue of access to credit in particulate for low- or moderate-
income first-time home buyers.
    So we are optimistic going forward that we can expand the 
aperture a little and hopefully get some of the depository 
institutions back into the program.
    Chairman Crapo. Thank you. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Senator Reed wanted to stay. He was called to a meeting 
with the Foreign Minister of the UAE and needed to go, but he 
has questions for the record that he will submit.
    Thank you. Good to see all of you. Thank you for bringing 
your skills and your interest in public service to this 
Committee. You have all been nominated for important jobs. I 
really am not asking you--this is a question. I do not 
understand why the Secretary of HUD has not moved more quickly 
to fill these jobs like they are doing today, but, still, so 
many unfilled that really, really matter.
    Mr. Montgomery, thank you for serving as Deputy Secretary. 
Thank you for continuing to serve as head of FHA.
    Did you sign off on HUD's proposed changes to the disparate 
impact rule?
    Mr. Montgomery. Sir, as you know, there were some 
safeguards that the Supreme Court thought that were wise to put 
into the program, and I think that is a lot of what we are 
hoping to accomplish with this rule. I would say that process 
began before my tenure as FHA Commissioner.
    Senator Brown. But did you sign off or you did not?
    Mr. Montgomery. Well, sir, that process began before I got 
to HUD.
    Senator Brown. Well, my colleagues and I are very concerned 
about these changes undermining fair housing protections and 
making it all but impossible for victims of housing 
discrimination to bring a disparate impact claim. Regardless of 
your justification there, I do not understand why you would not 
speak out about the problems there.
    Mr. Woll, I appreciated in your testimony talking about 
your faith, values, and treating every person--your father and 
mother taught you to treat every person, regardless of 
background or circumstances, with compassion, dignity, and 
respect.
    In September, HUD abruptly withdrew a competitive grant to 
provide funding for housing and services to victims of human 
trafficking. It is a terrible problem in my State, especially 
in the Toledo area. This grant program was a result of a 
partnership among HUD, DOJ, and other agencies, as you know, 
and involved significant input from stakeholders serving 
survivors.
    Your process from you and HUD's process for handling this 
grant frankly was a disaster. You provided no explanation to 
stakeholders, including my constituents who asked, as to why 
HUD abruptly canceled and suspended these grants in the midst 
of the process. HUD still has not told stakeholders when and 
how these funds might be awarded. HUD did not respond to my 
letter seeking additional information about these funds. This 
money is critical to organizations that struggle with resources 
and struggle with the whole of combating human trafficking.
    Can you commit to me this funding will be made available 
this calendar year and that you will clearly communicate that 
with applicants and with stakeholders?
    Mr. Woll. Senator, with respect to committing to this year, 
as you may know, the program is now going to be administered by 
the Department of Justice. I have been in contact with the 
Department----
    Senator Brown. I am sorry to interrupt. That was after, 
though, that they said they agreed to administer the grants 
after HUD suspended the grants.
    Mr. Woll. Yes, we had conversations with DOJ where DOJ 
indicated that they want to take the program back.
    Senator Brown. But you had suspended it.
    Mr. Woll. What we tried to do is we had an issue with 
respect to our clearance process. There was an amendment that 
was added and put up online. What we tried to do is reinstate 
the old NOFA that had been properly cleared. We did not intend 
to take it down or postpone----
    Senator Brown. That is not exactly music to the ears of 
people who wanted to know what happened and got no explanation 
from HUD or DOJ, but principally from you, about why these 
grants were suspended.
    Mr. Woll. Well, I can tell you that I know that your 
letter--I know that DOJ has a draft, which I have seen fairly 
recently and I anticipate that, with respect to your letter, 
they are going to be responding very soon, and they are 
optimistic that they are going to be able to launch this 
program. We have told them all along that we are here to help 
them. We think it is a wonderful program. We completely support 
it and will continue to support it in every way. It is 
essential for helping human trafficking victims.
    Senator Brown. Well, I appreciate that. Very soon is 
already very late considering when the letter was sent.
    Let me ask you another question in the last minute. You are 
the lead HUD official in a proposed rule to revise the 2016 
equal access rule. HUD found in those days, in the previous 
Administration, that transgendered persons experience 
``significant violence, harassment, and discrimination in 
attempting to access services.'' Transgender persons are often 
discriminatorily excluded from shelters or face dangerous 
conditions in the shelters that correspond to their sex 
assigned at birth.
    A dozen of us concerned about those revisions requested a 
briefing from you on possible policy changes in June, but the 
Department declined. You would not provide a briefing that we 
asked for 5 months ago.
    I will ask you now: Do you believe it is appropriate for 
transgender people to be denied access, particularly in light 
of your statement, your opening statement, to be denied access 
to basic HUD-funded shelter that corresponds to their gender 
identity?
    Mr. Woll. With respect to the 2016 rule, I am a little bit 
limited in what I can say because it is currently pending 
before OIRA, but----
    Senator Brown. That is not a reason not to give a briefing, 
but go ahead.
    Mr. Woll. I can tell you, Senator, that I detest any form 
of discrimination against anybody, particularly based on sexual 
orientation or gender identity. The 2012 rule continues to 
disallow that discrimination, and we are not going to permit 
discrimination against transgender individuals.
    Senator Brown. I believe you. I do not know you. I believe 
you. I heard your testimony. You sound, from my staff, as an 
honorable, decent man. Your faith is important, and your faith 
taught you to treat people--regardless of all of those things, 
to treat people alike. But you are part of an Administration 
that says terrible things about all kinds of people and divides 
people along race and gender and immigrant status lines, and I 
hope you do your job irrespective of what people that might be 
your bosses want you to do in terms of race and gender.
    Mr. Woll. Senator, I know the Secretary is on record saying 
that he detests discrimination, and, you know, we intend to 
completely enforce the 2012 restriction against any 
discrimination against anybody based on sexual orientation or 
gender identity.
    Senator Brown. Well, the Secretary has not--I appreciate 
that comment in front of us, but the Secretary has not really 
acted that way. But I trust you will. Thank you.
    Chairman Crapo. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Montgomery, back in 2017 I voted for your nomination to 
your current position in part because you assured me that you 
``strongly supported the Section 811 program,'' which supports 
persons with disabilities. You also stated your support for 
Section 202 housing, which provides housing to seniors.
    Unfortunately, the Administration has repeatedly called for 
cutting these programs for seniors and persons with 
disabilities, most recently by $34 million and $27 million, 
respectively.
    So according to HUD, about one in seven renters with 
``worst-case housing needs'' included a nonelderly person with 
disabilities. In 2017, you assured me with respect to the 811 
program that you will ``continue to advocate for this important 
program.''
    I will assume you have been advocating, although the 
Administration seems to be going in a different way. If you are 
confirmed to this new position, that will give you an elevated 
status in terms of your ability to speak to the Secretary. Can 
you assure me that you will ``continue to advocate for this 
important program''? And if so, will you advocate to make sure 
that it has the appropriate resources in order for it to be 
fulfilled?
    Mr. Montgomery. Thank you, Senator, for your question. If I 
am honored by this Committee to be Deputy Secretary, I will 
more than likely continue to run the FHA until a replacement 
can be named. So potentially in both capacities, I will 
definitely obviously continue to advocate for the 202 and 811 
program, as I did back in the Bush and Obama administrations. I 
think there is no better program to help largely elderly 
widowed females, frail elderly, than the 202 program. I was 
glad when this body 3 years ago put in additional funds for 
what is called ``capital advance,'' which was to construct more 
202 programs, and the same for the 811 program. My commitment 
to both has not changed, Senator, and I will continue to 
advocate vigorously for both.
    Senator Menendez. All right. Secretary Carson proposed 
raising the rents in federally assisted housing by an average 
of nearly 50 percent and triple rents for the lowest-income 
households. That proposal would put approximately 1.7 million 
people, including nearly a million children, at risk of 
eviction, hardship, and homelessness. In the State of New 
Jersey alone, 150,000-plus households would be affected. That 
is simply not acceptable. You and I talked about this, and 
there is, you know, some concern about budgets and whatnot--I 
get that--or some concern about those who have more income than 
that which is being reported. Of course, if you have more 
income, all of this housing is income-related to a large 
degree, so you should be reporting your income. But the result 
of going after individuals who have not reported their income 
is not to raise the rents across the board to everybody, who 
may very well still be stuck in the income status that 
justified their ability to participate in that program.
    Mr. Montgomery. Well, I will say, sir, that no mass 
evictions will occur as long as I am FHA Commissioner, 
Assistant Secretary for Housing.
    Senator Menendez. But do you understand the consequences, 
if implemented, of having a 50-percent increase on average and 
triple rents for the lowest-income households?
    Mr. Montgomery. As you know, I am the only person to serve 
as FHA Commissioner twice, and I am concerned, as I am sure you 
are, that when I was Commissioner last time, we were helping 
about the same number of people that we did back then, yet the 
costs have gone up $2 to $3 billion. So I think it is how do we 
contain the cost or, again, looking at possibly increasing 
renter contributions. We have to work together to address how 
this is going to be fixed going forward because, otherwise, the 
numbers will just continue to go up.
    Senator Menendez. Well, we do not have to spend $1 trillion 
in unpaid tax cuts. That would help us fund some of these 
programs. So I always see that we revert to going to the most 
vulnerable in our society as those who we are going to put this 
on their back, and I am going to fight that tooth and nail if 
that is where the Department is headed, and I want you to know 
it. And I hope that based on your experience you will move in a 
different direction.
    Mr. Chairman, it is difficult, and I urge you and the 
Ranking Member, when you have a panel this size of critical 
nominees, to get to the issues in 5 minutes. So I really hope 
either that you will consider a second round or that we can 
limit the size of these panels because it is impossible to get 
into critical questions with different critical, important 
positions. So if you will just give me the courtesy of another 
minute or so.
    Mr. Woll, Superstorm Sandy was one of the most destructive, 
costly natural disasters for the Northeast, particularly in the 
State of New Jersey. I will give you an example: Patricia from 
Union Beach, she was forced to vacate her house twice. She 
selflessly turned down the opportunity to tap additional 
disaster funding because she was so exhausted with the process, 
and she felt she had enough to rebuild, only to get hit with a 
$32,000 so-called clawback bill nearly 4 years after Sandy. Her 
life right now is a manmade nightmare, not natural disaster.
    There are thousands of people in the same situation as 
Patricia, and they want to know that their nightmare will end 
soon. Governor Murphy has taken a critical step of freezing 
these types of clawbacks until we work something out.
    Can you commit to working with my office in New Jersey to 
find a comprehensive solution that finally closes the chapter 
and allows Sandy survivors to move forward with their lives?
    Mr. Woll. Absolutely, Senator.
    Senator Menendez. And one last Sandy-related question. We 
fought incredibly hard to pass into law resources for the 
Rebuild by Design program, which funds resiliency projects in 
New Jersey and other affected States as a proactive, cost-
effective way of looking to the future to mitigate damages so 
we are not spending more money.
    Unfortunately, there is an arbitrary deadline that could 
force New Jersey and other States to forfeit all funding not 
spent by 2022. These are incredibly complex flood resilience 
projects, like the one in Hoboken, Weehawken, and Jersey City 
of $230 million that would provide flood protection to tens of 
thousands of residents in one of the most flood-prone, 
economically significant, and densely populated areas. With the 
2022 deadline now looming as these projects get ready to break 
ground, would HUD be willing to work with New Jersey on an 
administrative waiver to allow the State to expend Sandy funds 
beyond the 2020 deadline to complete some of the most vital and 
innovative flood-resilience projects? Otherwise, the money that 
we spent up front will have been lost for nothing.
    Mr. Woll. Yes, and I am very familiar with the Rebuild by 
Design program, competition, actually, based on my time in New 
Jersey. We think it is a wonderful program. We do want to have 
high-value, transformative projects, so, absolutely, we will 
work with you with respect to any sort of waiver that we can 
consider.
    Senator Menendez. Thank you very much.
    Chairman Crapo. Senator Cortez Masto.
    Senator Cortez Masto. Thank you. Welcome to all of you. 
Congratulations on your nominations. Welcome to your families. 
For the same reasons that my colleague from New Jersey just 
talked about, I am not going to get to ask all of you 
questions, so let me just start with Mr. Montgomery and Mr. 
Woll.
    Do you believe we have an affordable housing crisis in this 
country?
    Mr. Montgomery. Thank you for your question. I would say 
certainly more so in some areas versus others, and there are a 
whole lot of reasons for that.
    Senator Cortez Masto. OK. Mr. Woll.
    Mr. Woll. I concur with the Commissioner. In certain areas, 
we certainly have an affordable housing crisis.
    Senator Cortez Masto. Yeah, and I heard the Ranking Member 
mention this, but there are 11 million extremely low-income 
families who spent more than 30 percent of their income on rent 
and utilities in this country. But here is my concern. I know 
the 2020 budget proposal from the Trump administration asked 
Congress to drastically cut housing benefits that help millions 
of low-income seniors, people with disabilities, families with 
children, veterans, and other vulnerable populations. In fact, 
the proposed cut, to my understanding, to the HUD budget is 
about $9.6 billion, or 18 percent below the 2019 enacted 
levels.
    If true, and you are confirmed, what will you do to ensure 
that HUD provides safe and affordable housing to veterans, 
people with disabilities, low-income elderly, and families with 
children? Mr. Montgomery, I am going to start with you.
    Mr. Montgomery. Well, thank you for your question. I will 
speak to the programs that I run. I mentioned to Senator 
Menendez my commitment to helping those less fortunate, whether 
it is vulnerable elderly, persons with disabilities, families 
needing extra help, extremely low income. That commitment has 
not changed and will not change. I will continue to advocate 
for that. As you know, the budget is an iterative process, a 
process that goes back and forth and is lengthy, and the costs 
continue to grow and grow and grow. Again, I think that is 
something that, working together, we need to address.
    Again, looking at my tenure when I was Commissioner last 
time and now, we are helping about the same number of people. 
The costs continue to spiral.
    Senator Cortez Masto. So I appreciate your commitment, and 
I appreciate the costs, but give me specifics. You have been 
there long enough. Tell me how you plan on helping. What 
specific programs are you implementing? What are you doing?
    Mr. Montgomery. Well, I would put at the top of the list 
the Rental Assistance Demonstration Program that began during 
the previous Administration. To me it has been an excellent 
example of bipartisanship. It has allowed us to take aged 
public housing and convert it to more project-based rental 
assistance housing. So far we have done that to roughly 150,000 
properties throughout the country. As you know, we are looking 
to raise the ceiling on that. And it is helping to fill what is 
an enormous infrastructure hole that resulted over the last 30 
to 40 years.
    It is important, obviously, to develop, but it is equally 
important to preserve and hold on and renovate the aged housing 
stock.
    Senator Cortez Masto. Anything else?
    Mr. Montgomery. Well, again, I continue to advocate for the 
202 and 811 and PBRA programs.
    Senator Cortez Masto. Let me ask you this: Will you ensure 
the continuation of the Housing Trust Fund?
    Mr. Montgomery. Well, as you saw in the report, we 
reference the Housing Trust Fund. There have been a lot of 
different proposals of what that could look like, and that is 
one of the areas that we signal we want to work with Congress 
to fashion a Housing Trust Fund, and that is the direction we--
--
    Senator Cortez Masto. Do you plan on making changes to the 
Housing Trust Fund?
    Mr. Montgomery. I think there should be a discussion about 
how best to administer it, whether it should be formulaic, 
should it be where the worst-case housing need is, and, again, 
I think that is a process we could work together on to 
determine the best path forward.
    Senator Cortez Masto. Mr. Woll, what about you? Give me 
specific ideas on how we address the affordable housing crisis 
and what you intend to do or what you have done in the past to 
address it.
    Mr. Woll. Well, you had mentioned the Affordable Housing 
Trust Fund, and I think many of the goals of the Affordable 
Housing Trust Fund are excellent ones. We know that there is 
bipartisan support on funding affordable housing. My role at 
CPD would be to administer funds that come to us. There is a 
statute in place, as you know, Senator, HERA, dating back to 
2008, that establishes the mechanism for funding through the 
GSEs. And I know that the FHFA Commissioner has indicated that, 
as long as that continues to be funded through the GSEs, he 
will continue to collect the funds from the GSEs. And I commit 
to you that we will continue to use those funds in a wise and 
efficient way as long as we are still administering that 
particular program.
    With respect to, you know, other more vulnerable folks, our 
focus is on the most vulnerable, particularly the unsheltered 
homeless at this point, elderly and disabled. A lot of that we 
address through our Continuum of Care Program, whose funding 
has actually gone up to $2.3 billion. That is an important 
program for us, and we continue to administer that, hopefully 
in an efficient way.
    Senator Cortez Masto. Thank you. I notice my time is up, 
and I will submit the rest of my questions for the record. But 
I think we all agree there is an affordable housing crisis, and 
we need answers and we need solutions and we need ideas about 
how we address it, not cutting funding, not changing programs, 
but focused on addressing the very issues that we just talked 
about. My biggest concern is I have not seen that coming out of 
HUD, and I would like to work with you to make sure this is an 
issue we are addressing across the country.
    One other area we have not even talked about was the role 
that manufactured housing can play in addressing affordable 
housing in this country.
    So thank you again for the opportunity, Mr. Chair. I 
appreciate it.
    Chairman Crapo. Thank you.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman. Thank you all for 
your willingness to serve. Thanks to the families for sitting 
there politely. We are almost done.
    I want to ask about the slow pace of disaster funding 
getting pushed out. On October 5, 2018, Congress appropriated 
the first round of CDBG-DR funding for the 2018 disasters. That 
is 412 days ago, and I think none of it has been pushed out. I 
wanted to start with Mr. Montgomery. What is happening there? 
And how do we do better?
    Mr. Montgomery. Well, sir, I will zero in on the mitigation 
program first. As you recall, this is the first time Congress 
they have developed this program to help get ahead of--help 
communities get ahead in preparation for what I am sure will be 
future storms. It was a very new program for us.
    Senator Schatz. Right, so measure twice, cut once. You are 
trying to get this right. You are establishing a new program. 
It is a nontrivial amount of money. You want to----
    Mr. Montgomery. $16 billion.
    Senator Schatz. Right. You want to do it right. I get it. 
So we have a bill, Senator Young and I, to codify CDBG-DR so 
that you do not have to go through the Administrative 
Procedures Act every single time you are doing essentially the 
same thing. That will not cut down all of the time because 
there are multiple sort of reasons for and layers of delay. But 
would that help if that were codified in statute?
    Mr. Montgomery. I will take that one, Senator. I would say 
that there have been other instances where the Administrative 
Procedures Act has hindered my ability to run a $1.4 trillion 
corporation, the FHA. I understand why the APA is there and the 
process it brings, but there are some things that happen, 
housing crises, natural disasters. We cannot always adapt to 
the slowness of the Administrative Procedures Act.
    Senator Schatz. So it would help?
    Mr. Montgomery. I am not saying we get rid of it. I am just 
saying in the abstract----
    Senator Schatz. I understand.
    Mr. Montgomery. Anything to speed up----
    Senator Schatz. But, again, this is not a waiver of the 
Administrative Procedures Act. This is just establishing the 
program in statute so that you do not have to hang your hat on 
existing Federal law and then go and make a rule to allow 
yourself to do it. We would just presumptively allow it as a 
matter of Federal law.
    Mr. Woll, you seem to want to weigh in here.
    Mr. Woll. Yeah, I think authorizing CDBG may make sense, 
and I think, you know, the Secretary is on record basically 
saying that it may give us an opportunity to start on second 
base in order to speed the money to the grantees. I think it 
would be essential with respect to any bill that it would 
retain the waiver and alternative requirement authority that 
the Secretary currently has because that is the thing that 
allows us to be nimble and to react to the different types of 
disasters such as in your State.
    Senator Schatz. Sure.
    Mr. Woll. And, you know, the different needs----
    Senator Schatz. We like the waiver authority very much 
where volcanoes exist.
    Mr. Woll. Absolutely.
    Senator Schatz. Thank you.
    Can you speak to the value sort of more generally, Mr. 
Montgomery, of resilience and mitigation funding? This is sort 
of a new area, and I would like you to just very briefly talk 
about why you think it is important.
    Mr. Montgomery. Well, I actually think it is important for 
some of the reasons articulated before, to help States and 
communities get better ahead in preparation for the next storm, 
whether it is, you know, infrastructure projects, seawalls, 
drainage, you name it. And I think Congress did the right thing 
by authorizing it and funding it.
    Senator Schatz. Thank you. Finally, I would like you to 
weigh in on a report entitled ``The State of Homelessness in 
America'' from the Council of Economic Advisers. Frankly, they 
say some weird things in this report, and I want to quote from 
it: ``While shelter plays an extremely important role in 
bringing some of the people off the streets, it also brings in 
people who would otherwise be housed, thus increasing 
homelessness.'' Further, it says, ``Free shelters that are 
hygienic, safe, and dignified enough to accomplish some of the 
goals they should accomplish are also attractive enough to 
bring in many people who would not otherwise be on the 
street.''
    They are saying that if you make shelters too nice, people 
will choose to be homeless or house-less, and I am wondering, 
given your expertise and your position, if you would like to 
weigh in on that.
    Mr. Montgomery. I would just say that most of the shelters 
I have toured have not been luxurious by any stretch of the 
imagination.
    Senator Schatz. Mr. Woll.
    Mr. Woll. Well, obviously, shelters is just one step. There 
is nothing worse than being out on the street. Those are the 
people who are the most vulnerable. Shelter is one step up----
    Senator Schatz. Sure, but I want to put--sorry to 
interrupt. Just in the interest of time, I want to put a fine 
point on what the Council of Economic Advisers is actually 
saying. They are not talking about that. They are saying if you 
make these facilities too nice, people are going to choose to 
move from being housed to moving into a shelter because that 
sort of--I mean, I just do not know any--first of all, to your 
point, Mr. Montgomery, there are no shelters that are that 
fancy. But even if there were, there is just no person that I 
am aware of who would sort of elect to go and move into a 
homeless shelter if the alternative were to be more properly 
housed. And I am assuming that both of you are in agreement 
with me and in disagreement with the CEA.
    Mr. Montgomery. Well, I would just say your point is well 
taken, and I will go back and look at the study again and 
circle back with you.
    Senator Schatz. Mr. Woll.
    Mr. Woll. I have not read that particular report. I know 
usually we are working the other way to get people into 
transitional housing and then hopefully rapid rehousing, 
permanent housing, as a way of properly--it is hard to treat 
somebody who has been out on the street unless you give them 
shelter.
    Senator Schatz. Thank you.
    Chairman Crapo. Thank you.
    Senator Brown has one more question, and then we will wrap 
it.
    Senator Brown. I want to go back to Mr. Montgomery for one 
question. I do not feel like I quite got the answer. I know HUD 
did not start considering the disparate impact rule during your 
tenure, and you pointed that out. But you were Acting Deputy 
Secretary when HUD issued its proposed disparate impact rule, 
which--so let me say it again. Did you sign off on the proposed 
disparate impact rule? It was published in August. You talked 
about when it was begun you were not there. But when it was 
published, it was in August, 8 months after you took over. Did 
you sign off on it?
    Mr. Montgomery. Well, in terms of--you mean like physically 
signing some document? Just to make sure I understand your 
question.
    Senator Brown. Yeah, did you--does that mean you 
supported--did you do an official act to support this rule?
    Mr. Montgomery. In terms of literally signing off on 
something, no, I have not. That is not under my purview. As you 
know, I currently run the FHA.
    Senator Brown. Put that aside. You are Deputy Secretary----
    Mr. Montgomery. It does consume a lot of time----
    Senator Brown. Acting Deputy Secretary. I am thinking 
responsibility for something as big coming out of HUD as the 
disparate impact rule. Did you support that? Did you actually 
do something affirmative to allow this to move forward?
    Mr. Montgomery. Sure, absolutely. I have been involved in 
those discussions, and there is a sufficient amount of gray 
area within the Supreme Court decision that they caution we 
need to put some meaningful safeguards, you know, to help 
ensure ``the free market system.'' So I think part of what we 
are doing to make sure that, yes, they upheld the theory of 
disparate impact, but we need to be careful and put some 
safeguards in place.
    Senator Brown. OK. But the question was not defend the 
rule. I think that is pretty indefensible. You do not. But I 
just wanted to know your responsibility in the rule being 
promulgated and approved, and as Deputy Secretary, you were 
responsible, correct?
    Mr. Montgomery. Well, there are a lot of us at HUD 
responsible for it, but going forward, I would be more involved 
in that process going forward.
    Senator Brown. All right.
    Chairman Crapo. Thank you. That concludes the questioning 
for today's hearing. For Senators who wish to submit questions 
for the record, those questions are due to the Committee by the 
end of the day on Friday, November 22nd. And to our witnesses, 
we ask that as you receive those questions, you respond to them 
no later than close of business on Monday, December 2nd.
    Thank you again to our nominees for being here today, and, 
again, thank you for your willingness to serve.
    With that, this hearing is adjourned.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]
    [Prepared statements, biographical sketches of nominees, 
responses to written questions, and additional material 
supplied for the record follow:]
               PREPARED STATEMENT OF CHAIRMAN MIKE CRAPO
    This morning, the Committee will receive testimony from five 
nominees who have been selected to serve in key roles within the 
Department of the Treasury, the Department of Housing and Urban 
Development, and the Export-Import Bank.
    Going down the line, we have: Mitchell Silk, to be Assistant 
Secretary for International Markets at the Department of the Treasury; 
The Honorable Brian Montgomery, to be Deputy Secretary of Housing and 
Urban Development; David Woll, to be HUD Assistant Secretary for 
Community Planning and Development; Jack Bobbitt, to be HUD Assistant 
Secretary for Administration; and Peter Coniglio, to be Inspector 
General of the Ex-Im Bank.
    Welcome to all of you, and thank you for your continued commitment 
to public service.
    I see friends and family behind you, and I welcome them here today 
as well.
    Mitchell Silk has served with distinction as Acting Assistant 
Secretary of the Treasury for International Markets since July and as 
Deputy Assistant Secretary for International Affairs since 2017.
    He is a leading expert in Chinese law and finance, who is fluent in 
both Mandarin and Cantonese, and spent 15 years working in Greater 
China as a Partner with the law firm Allen & Overy.
    Since joining Treasury, Mr. Silk has been a key voice on trade 
negotiations, energy and infrastructure finance, export credit and 
financial services.
    Brian Montgomery is no stranger to this Committee, having served as 
Federal Housing Commissioner under Presidents Bush, Obama, and Trump, 
and having testified before us on seven other occasions on matters 
relating to housing and housing finance.
    During his previous tenure at the helm of the Federal Housing 
Administration, he provided steadfast leadership through one of the 
most trying times that housing markets have ever seen.
    During his current tenure at FHA, he has overseen the return of 
FHA's insurance fund to its strongest financial position since Fiscal 
Year 2007, while continuing to provide affordable home ownership 
opportunities to tens of thousands of first-time home buyers each year.
    Since January of this year, Mr. Montgomery has also served as 
Acting Deputy Secretary, charged with overall management of day-to-day 
operations of the Department.
    Once confirmed as permanent Deputy Secretary, the Department will 
continue to benefit from his deep institutional knowledge, expertise, 
and dedication to making our housing programs work better.
    Since November 2018, David Woll has served as Principal Deputy 
Assistant Secretary for HUD's Office of Community Planning and 
Development, where he has overseen HUD's homeless assistance, disaster 
relief, and block grant programs.
    He has dedicated his entire career to public service, including as 
an Assistant U.S. Attorney, Deputy General Counsel at HUD, and Senior 
Policy Advisor to the Governor of New Jersey, where he served as the 
State's compliance director for Superstorm Sandy relief efforts.
    With direct experience both administering CPD programs and 
implementing them as a State partner, Mr. Woll is well-equipped to 
continue leading CPD forward.
    Jack Bobbitt currently serves as Deputy Assistant Secretary for 
Housing Operations at HUD, where he oversees procurement, human 
resources, facilities, communications, and IT systems for the Office of 
Housing.
    He previously served as Special Assistant to Commissioner 
Montgomery during the Bush administration and has also served in a 
variety of executive roles in the private sector, including both large 
corporations and start-up ventures.
    If confirmed, Mr. Bobbitt would combine his keen understanding of 
HUD operations with decades of private-sector experience as he oversees 
HUD facilities, procurement, staffing, training, and performance 
management.
    Finally, Peter Coniglio would bring a wealth of relevant experience 
to the Export-Import (Ex-Im) Bank IG office, having served in the 
Office of Inspector General at the General Services Administration 
since 2006, in addition to other distinguished service within the 
Department of Justice, the Department of the Treasury, and the Senate 
Judiciary Committee.
    In meetings with my office, Mr. Coniglio has committed to running a 
``fully functioning, independent, regular order'' operation at the Ex-
Im Office of Inspector General.
    In only a few months in office since their Senate confirmation, the 
new Ex-Im President Kimberly Reed and her colleagues on the board have 
already taken significant steps to bring greater transparency and 
accountability to the bank.
    This progress has not gone unnoticed by many of us on the 
Committee.
    Having a new Senate-confirmed Inspector General in place will only 
serve to strengthen those efforts.
    These nominees are highly distinguished and well-qualified to serve 
in the roles to which they have been nominated.
    I look forward to working with each of you in the months ahead to 
advance the aims of your agencies and to expand economic growth.
    Thank you once again for your willingness to serve and for 
appearing before our Committee today.
    I encourage my colleagues to expeditiously confirm all five of you 
so that you can quickly get to work for the American people.
                                 ______
                                 
              PREPARED STATEMENT OF SENATOR SHERROD BROWN
    Thank you, Mr. Chairman, for holding today's hearing on the 
nominations of Mr. Mitchell Silk, Mr. Brian Montgomery, Mr. David Woll, 
Mr. John Bobbitt, and Mr. Peter Coniglio. Congratulations to each of 
you and welcome to your families and guests.
    President Trump nominated Mitchell Silk to be Assistant Secretary 
for International Markets at the Treasury Department.
    His portfolio at Treasury is broad--from energy and infrastructure 
issues, to trade negotiations with China and global financial risks at 
the Financial Stability Board.
    China has recognized the global demand for updated infrastructure 
investments and is making significant investments in infrastructure 
projects around the world through its Belt and Road Initiative. 
However, concerns have arisen--about the terms provided; the failure to 
use local workers; and the quality of the work completed.
    The appetite for the Belt and Road Initiative makes clear that we 
need to increase support for investments abroad in order to provide the 
world with a market-based alternative to China, one that respects 
workers and is focused on sustained, local growth and not on the 
expansion of Chinese influence. U.S. leadership in infrastructure 
development also requires acting to address the threats we face from 
climate change. If confirmed, Mr. Silk, I hope that you will continue 
to focus on those efforts.
    We will also hear from Mr. Coniglio, the nominee to be Inspector 
General at the Ex-Im Bank. A confirmed Inspector General will help 
ensure transparency and accountability in the Bank's operations, but 
Mr. Coniglio's nomination is not the only Ex-Im nomination that we need 
to act on.
    The full Senate needs to vote on the nominations of Paul 
Shmotolokha [Schmo-tow-low-ka] and Claudia Slacik whom our Committee 
previously reported with strong bipartisan support. We need a full Ex-
Im board and a qualified inspector general to provide oversight and 
guidance as Ex-Im approves deals that create jobs in Ohio and around 
the country.
    Finally, three of today's nominees have been nominated to positions 
within the Department of Housing and Urban Development, where they are 
all currently serving.
    Mr. Montgomery is currently serving in a confirmed role as 
Assistant Secretary for Housing--Federal Housing Commissioner and has 
been nominated to serve as Deputy Secretary.
    Mr. Woll has been nominated to be Assistant Secretary for Community 
Planning and Development and has experience monitoring compliance with 
the CDBG-Disaster Relief program, which he would oversee if confirmed.
    And Mr. Bobbitt has been nominated to serve as Assistant Secretary 
for Administration, where he would be responsible for overseeing hiring 
policies, procurement and operations.
    HUD provides housing assistance to 4.7 million low-income families 
and supports homeless services across the country. It also enforces the 
Fair Housing Act, insures more than 8.1 million mortgages, and 
administers billions in assistance to communities hit by natural 
disasters.
    HUD's policies affect every community--both big and small. A home 
is a foundation for opportunity, and it's usually the biggest item in a 
family's budget. Hardworking families and the Nation's most vulnerable 
members rely on these critical programs and protections.
    But President Trump's administration doesn't seem to understand 
that.
    At a time when 11 million families spend more than half of their 
income on housing, we need to be doing more to help families succeed.
    Yet the Trump administration has year after year proposed to slash 
HUD's budget and eliminate programs like CDBG and HOME that make 
affordable housing development possible.
    This Administration has also released a document questioning long-
established best practices to address homelessness, and just last week 
removed the widely respected head of the interagency council 
responsible for coordinating Federal agencies' homelessness response.
    HUD wants to undermine the enforcement of the Fair Housing Act 
based on disparate impact, and to weaken protections for transgender 
individuals' who need shelter.
    Last week, HUD promoted a political appointee with a history of 
racist and sexist writings to the second highest position at Ginnie 
Mae, which guarantees $2.1 trillion in mortgage-backed securities.
    And just a few months ago, HUD proposed changes to the FHA program 
that could make it harder for millions of families to afford to buy a 
home.
    Each of these actions is deeply troubling on its own. Taken 
together, it's pretty clear that not only is President Trump's 
administration not doing anything to help families afford a home, but 
that they're actively making it harder.
    Both Mr. Woll and Mr. Montgomery have played a role in some of 
these policies and decisions, and I expect to hear more about that in 
today's hearing.
    These positions play a critical role in many of the economic issues 
our country faces--from international trade, to sustainable energy, to 
affordable housing, and I look forward to hearing more from the 
nominees. Thank you.
                                 ______
                                 
                 PREPARED STATEMENT OF MITCHELL A. SILK
To Be Assistant Secretary for International Markets, Department of the 
                                Treasury
                           November 20, 2019
    Chairman Crapo, Ranking Member Brown, and distinguished Members of 
the Committee, it is a great honor to appear before you today as the 
President's nominee to be Assistant Secretary of the Treasury for 
International Markets. I thank the President and Secretary Mnuchin for 
their trust and confidence in me. If confirmed, I look forward to 
working with all of you on the critical issues within Treasury's 
International Markets portfolio.
    As backdrop to my remarks, I wish to acknowledge my family, 
including my extraordinary grandparents and parents who are no longer 
with us. At times like this, the feeling of loss is tremendous, and 
tempered only by their immense inspiration that I will detail in a 
moment. My amazing wife Yocheved Rivka is here with me today. She 
serves our community as a physician's assistant in a family practice in 
Brooklyn while looking after our eight children and doting on our three 
grandchildren. She is a constant source of inspiration, support and 
strength. She is joined by her father, Rabbi Duvid Aron Orlander, and 
four of our children: Meshulam, Naftuli Chaim, Mordechai Dov, and Tauba 
Raitza.
    I owe the privilege of appearing before this distinguished 
Committee to my family and the opportunities that the United States of 
America has afforded us. My grandparents immigrated to this country 
from hardship and persecution in Eastern Europe. Their life experiences 
were chilling. My maternal grandfather, the guiding light of my life, 
grew up in abject poverty, witnessed Cossacks brutally murder his 
family members and struggled to cope with the extermination of his 
family in the Holocaust. For my family, this country represented 
freedom, security and immense opportunity. They worked hard as 
tradesmen and laborers.
    Their life challenges enforced their commitment to improving the 
lives of others. My grandfather spoke with pride of his communal 
leadership, including his part in successfully lobbying for one of 
Chicago's first projects to provide subsidized housing for over 1,000 
impoverished European immigrant families during the Great Depression. 
My father was proud to have served in the Second World War in the 
Pacific Fleet. His brother served in the Army National Guard. My mother 
assisted the lives of thousands over her 40-year nursing career.
    Family circumstances required me to go to work full time when I was 
thirteen. My first job was in a Chinese restaurant as a dishwasher, 
then prep cook, busboy, and finally waiter. My hard work yielded 
fluency in Chinese and sufficient earnings to fund college and law 
school. I was the first in my family to graduate from college.
    I enjoyed an exciting career in law for more than 30 years in both 
the U.S. and Asia. I specialized in large and complex cross-border 
investment, bank regulatory and finance matters, focusing heavily on 
the energy and infrastructure sectors. Like my grandparents and 
parents, service to the community was a priority for me. While in 
private practice, I served for over a decade as chair of a nationwide 
pro bono legal services network of more than four hundred lawyers.
    I joined the Treasury Department as Deputy Assistant Secretary for 
Investment, Energy and Infrastructure in 2017. Over the last 2 years, I 
have had the honor of advancing our country's interests alongside 
Treasury leadership and its highly dedicated career staff.
    Treasury's International Markets portfolio is critical to advancing 
U.S. interests in global financial and investment markets. We lead 
engagement with international regulatory bodies and coordinate trade 
policy with respect to financial services. We also oversee Treasury's 
technical assistance program, which assists our allies globally. In 
addition, the portfolio covers the critically important areas of U.S. 
participation in development finance, including implementation of the 
BUILD Act, and trade finance globally. And we lead Treasury's efforts 
to promote private capital solutions in energy and infrastructure 
finance to support responsible global growth, a critical initiative 
which I designed and have overseen since joining the Department.
    My work at Treasury and in private practice has given me a deep 
appreciation for how these international economic issues have a 
significant impact on the lives of individual Americans. It has been 
and will continue to be an honor to come full circle and play my part 
to ensure the continued freedom, security and immense opportunity that 
this country afforded my family. If confirmed, I will work closely with 
this Committee to continue these essential tasks.
    Thank you again for the opportunity to appear before you today. I 
look forward to answering your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

               PREPARED STATEMENT OF BRIAN D. MONTGOMERY
  To Be Deputy Secretary, Department of Housing and Urban Development
                           November 20, 2019
    Thank you Chairman Crapo, Ranking Member Brown, and Members of the 
Committee, I am honored to appear before you today to be considered for 
the position of Deputy Secretary of the Department of Housing and Urban 
Development (HUD).
    If I could, I'd like to take a moment to thank my family, including 
my wife, Katy, my two children, Emily, age 13, and Thomas, age 10, as 
well as my parents and sisters for their love and support over the many 
years. Sadly, my dad passed away 2 years ago, but my mom, the daughter 
of Mexican immigrants, is in Houston and I am grateful for all the 
sacrifices they made that allowed me to be here today.
    I would also like to express my gratitude to President Trump and 
Secretary Carson for the confidence they have in me to serve in such an 
important role at the Department.
    Working with Secretary Carson for the past one-and-a-half years has 
provided me with a new understanding of what it truly means to serve. 
It has been an honor and I look forward to advancing HUD's mission 
together as his Deputy.
    Mr. Chairman, I was humbled by the trust this Committee placed in 
me to serve as FHA Commissioner from 2005 to 2009 and again in this 
Administration. I have always believed that the work we do at HUD 
transcends party lines. It's making sure every hardworking American has 
a fair shot at the American Dream.
    During my tenure at HUD, which has spanned 6 years, three 
Administrations, and both parties, I'm proud of the work we did to 
preserve FHA as a viable option for home buyers.
    Just last week I was pleased to present HUD's Annual Report to 
Congress regarding the status of FHA's Mutual Mortgage Insurance (MMI) 
Fund for fiscal year (FY) 2019.
    This year's Annual Report reflects the significant progress FHA has 
made since this Administration took office to improve the fiscal health 
of the MMI Fund, protect taxpayers, and continue serving American home 
buyers.
    The MMI Fund is as sound as it has been in over a decade with a 
capital ratio of 4.84 percent. In FY2019 FHA insured forward mortgages 
for 990,000 households, of which 615,000, were first-time home buyers. 
In addition, over one third of FHA's purchases mortgages went to serve 
minority home buyers.
    One way we have sought to strengthen FHA has to been to clarify 
regulatory expectations so that responsible lenders can confidently and 
fully participate in the program.
    For example, market participants' concerns about uncertain and 
unanticipated False Claims Act liability for underwriting defects has 
led many depository lenders to largely withdraw from FHA lending. 
Today, depository institutions originate less than 14 percent FHA-
insured mortgages, down significantly from approximately 44 percent in 
2010. To address these concerns, in October, HUD and the Justice 
Department signed a Memorandum of Understanding (MOU) for cases brought 
under the False Claims Act against FHA lenders. This MOU provides a 
framework to apply remedies for FHA lender violations in a consistent, 
uniform and appropriate way. In addition, FHA updated its 
certifications and defect taxonomy to better assess the appropriate 
remedies for program violations. This suite of reforms should make 
affordable FHA-insured mortgages more accessible to qualified borrowers 
and reduce risks within the FHA program.
    We are also working to expand and strengthen loss mitigation 
options for borrowers. Under my tenure, FHA made permanent the 
``Disaster Standalone Partial Claim'' for disaster victims who are 
rebuilding or buying another home following a disaster. This option 
covers up to 12 months of missed mortgage payments via an interest-free 
second loan on recovering families' home.
    In recent years, HUD has been asked to play a greater role in long-
term recovery after natural disasters. If I'm confirmed as Deputy 
Secretary, I want to give you my pledge that we will do everything we 
can to help the people impacted by the hurricanes that ravaged so many 
States, from my hometown of Houston to North Carolina and Puerto Rico, 
as well as the most recent wildfires in California.
    In 2017, for the first time in the history of HUD's administration 
of disaster recovery, Congress provided mitigation funds as part of a 
CDBG-DR appropriation. To deliver on this mission, I have visited 
Puerto Rico to meet with the island's political leadership and with the 
officials at Vivienda who are responsible for administering the CDBG-DR 
grant. We are committed to ensuring the record funding going to Puerto 
Rico reaches the people in need and helps them recover and build a more 
resilient future.
    I further note that HUD has one of the most tenured workforces in 
the Federal Government, and its headcount has decreased by more than 60 
percent over the past 20 years. It is a priority that we have the right 
work force to fulfill HUD's important missions in the years to come, 
and we are working hard to make that happen.
    Finally, HUD's housing finance reform plan, released in September, 
calls for additional improvements to FHA's policies, technology, and 
operations. I would note that during my first tenure in this job, back 
in 2008, we were able to work closely with the leaders of this 
Committee, including Senators Shelby and Reed, to pass a landmark FHA 
modernization bill. I sincerely hope we can continue that work in the 
year ahead and pass meaningful, bipartisan housing finance reform.
    I'd like to thank the Committee for your time this morning, and 
your consideration of my nomination to serve as Deputy Secretary. I 
look forward to your questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                PREPARED STATEMENT OF DAVID C. WOLL, JR.
   To Be Assistant Secretary for Community Planning and Development, 
              Department of Housing and Urban Development
                           November 20, 2019
    Thank you, Chairman Crapo, Ranking Member Brown, and distinguished 
Members of this Committee. I am deeply honored to be nominated to serve 
as Assistant Secretary of the U.S. Department of Housing and Urban 
Development's Office of Community Planning and Development.
    If I may, I would first like to introduce my family, who are the 
most important people in my life. I am happy to introduce my wife of 23 
years, Phoebe Cabell Woll. I would also like to introduce my three 
children: my oldest son Tripp, who is a senior at Pennsylvania State 
University; Ted, who is a junior at the University of Wisconsin; and my 
youngest, Bryce, who is a sophomore in high school.
    I would also like to introduce my dad, David Woll, who has been my 
mentor both as a father and as a lawyer. My dad and my mom, who I wish 
was still with us today, taught me the importance of faith, values and 
treating every person, regardless of their background or circumstances, 
with compassion, dignity, and respect.
    My brother Mike is also here with his wife, Anita Woll. I cannot 
thank them enough for their tremendous support. My sisters Eileen and 
Francie were unable to travel here today, but they too have always been 
very supportive of me and I am profoundly grateful for their love and 
encouragement.
    My path to nomination and this confirmation hearing has been 
somewhat untraditional. After graduating from the University of 
Maryland and the University of Virginia School of Law, I spent most of 
my earlier career as an investigator and prosecutor working to protect 
victims of crime.
    At the Securities and Exchange Commission, I was a senior counsel 
in the Enforcement Division, where one of my largest matters was a 
securities fraud case involving a securities boiler room that targeted 
unsophisticated and elderly investors.
    At the U.S. Attorney's Office for the District of Columbia, I spent 
3 years prosecuting domestic violence and sexual assault cases against 
people who victimized some of the most vulnerable people in the 
community, including children, indigent women who had been trafficked, 
and young people who were LGBTQ. I also served as a Federal prosecutor 
in Brooklyn, where I prosecuted business and securities fraud cases in 
which the victims were financially devastated due to the greed of 
others who took advantage of them. This included prosecuting a $100 
million Ponzi scheme and a Hurricane Katrina fraud case.
    Following Superstorm Sandy in the Fall of 2012, I had an 
opportunity to do something completely different, which was to work on 
disaster recovery for the State of New Jersey. That was an important 
moment in my career because it ended up being my first exposure to HUD 
and the dedicated career staff who work for its Office of Community 
Planning and Development. It struck me then, as it does now, that CPD 
genuinely cares about disaster victims, the unsheltered homeless and 
others in need, and works incredibly hard to help grantees navigate 
through very stressful and difficult circumstances. I feel particularly 
privileged to be considered to lead this incredibly talented team.
    There is always, however, room for improvement, particularly when 
it comes to better serving the States and communities who are our 
grantees. With this in mind, I have several priorities if I am 
confirmed.
    First, CPD needs to continue to strengthen its stewardship of the 
Disaster Recovery program by making sure we have the right number of 
people in the right places. To that end, we are in the process of 
doubling the size of the disaster recovery division, and out-stationing 
staff closer to our grantees. This will help us to deliver grant 
assistance in a more efficient manner and give us greater flexibility 
to respond to the unique needs of each State and grantee.
    Second, CPD needs to work with other agencies, States, 
municipalities and the private sector to develop strategies to target 
unsheltered homelessness. This effort is similar to what we did when we 
targeted veterans' and family homelessness, which led to decreases in 
both numbers.
    Third, our many field offices are on the front line and play a 
critical role in forging relationships with our grantees. We need to 
reshape our field operations in order to improve communications between 
headquarters and the field, and to give the field offices greater 
flexibility to react to the changing needs of our grantees.
    Members of the Committee, I have always worked to help those who 
are vulnerable and most in need. If confirmed, I commit to you that I 
will continue to do so as the Assistant Secretary of CPD. Thank you.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                   PREPARED STATEMENT OF JOHN BOBBITT
To Be Assistant Secretary for Administration, Department of Housing and 
                           Urban Development
                           November 20, 2019
    Chairman Crapo, Ranking Member Brown, and distinguished Members of 
the Committee, it is a privilege to appear before you this morning. I 
am deeply honored that President Trump has nominated me to serve under 
Secretary Carson as the Assistant Secretary for Administration at the 
Department of Housing and Urban Development.
    Before I begin, I want to express my deepest appreciation to my 
beautiful wife, Jian, who is here today. Jian has been, and continues 
to be, a bedrock of support, the love of my life for me and our family 
while I serve at HUD. She is here today from our hometown of Houston, 
where she has maintained our residence to provide care for my mother 
and father, George and Bette Bobbitt.
    I want to thank my father, a Navy Veteran of World War II and my 
mother who worked for the British Army Staff here in Washington, D.C. 
They met at a USO dance during the war and have been married for 72 
years. At 97 and 96 years old, they are the source of my passion to 
succeed personally and professionally. I also want to acknowledge my 
grandfather Dr. Clarence Charles Hastings, a prominent veterinarian and 
World War I Veteran who instilled in me strong values and a work ethic 
required to succeed. And finally, I want to thank my stepdaughter 
Xaioting, Mike Fei, sister Robin, and our extended family, friends, and 
colleagues for their love and support.
    During my 37 years of business experience, I have served in diverse 
executive roles in the private and public sectors responsible for 
operations, finance, sales and marketing for large multibillion-dollar 
corporations to start-up ventures.
    My Government and public service journey began in 1984 as a 
volunteer White House Lead Advance Representative. I served in that 
capacity under the George H.W. Bush and George W. Bush administrations 
and I have served in that role in the Trump administration. I also 
served as the Director of Strategic Communications at HUD from 2006 to 
2009 and had the privilege to return to HUD in February 2019 as the 
Deputy Assistant Secretary for Operations, managing human resources, 
procurement and facilities within the Office of Housing, HUD's largest 
office. During my time in this position, I have established core 
values, an open-door policy, met with many employees, restructured the 
management team, and increased our FEVS score card of leadership by 23 
percent and overall employee satisfaction by 17 percent. We also 
created and launched a comprehensive Employee Development Training 
Program.
    My knowledge of HUD and Government operations has given me a sound 
perspective on what is required to achieve success in the work ahead--
both from the organization and from myself. Additionally, my relevant 
skills and extensive experience obtained from the private sector will 
aid in implementing improved and more efficient processes.
    I believe that a leader's management philosophy is the cornerstone 
for the organization's direction, vision, goals and success. As a 
leader, I am committed to the development and advancement of three 
things: People, Processes, and Performance.
    I believe you manage work, but you lead people. I believe in an 
employee-centered organization that strives to achieve high morale 
through a positive, accountable culture that develops individuals for 
career growth and opportunities.
    Next is the efficiency and effectiveness of the processes that are 
adopted. A focus must be placed on clearly identifying and streamlining 
processes and policies.
    Finally, my emphasis is on performance. I believe that an 
organization that properly sets standards of measurement, creates 
attainable goals, and empowers staff to achieve them is bound for high 
performance.
    So, with these as my guiding philosophy, here are the priorities I 
will focus on if confirmed as HUD's Assistant Secretary for 
Administration:

  1.  I will implement a culture and set of core values as well as a 
        ``career long'' employee training program that will foster 
        employee development and succession planning.

  2.  I will focus on improving the hiring process by working to 
        decrease the time it takes to hire, and reduce the risks 
        associated with critical vacancies.

  3.  I will introduce measures to decrease the prolonged process of 
        procurement and ensure qualified oversight of existing 
        contracts.

  4.  And finally, the modernization of HUD's hiring, training, and 
        procurement IT systems to enhance accuracy, accountability, and 
        the ability to effectively measure performance.

    Mr. Chairman, distinguished Members of this Committee, thank you 
again for your consideration of my nomination. I welcome your 
questions.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                PREPARED STATEMENT OF PETER J. CONIGLIO
    To Be Inspector General, Export-Import Bank of the United States
                           November 20, 2019
    Thank you, Mr. Chairman, Ranking Member Brown, and Members of the 
Committee for inviting me to appear before you today. It is my great 
honor and privilege to be the President's nominee to be the Inspector 
General of the Export-Import Bank of the United States. I am very 
humbled to be considered for this position.
    With me today is my wife of 42 years, Jamie Wright Coniglio. She is 
my rock and my biggest fan, and there isn't any way that I would be 
here today before you without her support and encouragement.
    I'd also like to express my appreciation to my current and former 
colleagues in GSA's Office of Inspector General for their terrific 
support throughout this process. They are all consummate professionals.
    I am here today because my grandparents came to this country from 
Italy: my father's father from Sicily in 1897 and my mother's parents 
from Calabria--the ``toe of the boot'' after the turn of the 20th 
Century.
    My late father served in the Army Air Force in the China-Burma-
India theater during World War II, while my late mother worked to 
support the war effort stateside. They were among that great generation 
of Americans who were tempered by the hardships of the Great Depression 
and who then went on to win World War II and the Cold War.
    I could not have had better parents. My being here today is also a 
testament to them.
    Since my graduation from Drake University Law School, I have been 
afforded many opportunities and experiences that have prepared me for 
this opportunity.
    I served with a legislative staff in the Iowa State Senate in Des 
Moines, and after we moved to the D.C.-area I served with the 
legislative affairs shop of a major trade association.
    I was then fortunate to serve as a legislative assistant for Rep. 
Jim Ross Lightfoot of Iowa--as a line-counsel for Sen. Charles 
Grassley's then-Senate Judiciary Subcommittee staff--and then as the 
late Rep. Lawrence Coughlin's Minority Chief Counsel and Staff Director 
of the then-House Select Committee on Narcotics Abuse and Control.
    I then moved from Capitol Hill to the Justice Department, where I 
served for about 13 years. My major activities there included working 
in its Office of Legislative Affairs and in the General Counsel's 
Office of its Executive Office for United States Attorneys.
    After the Justice Department, I was hired as the Senior Counsel for 
Ethics in the Office of General Counsel at the Treasury Department.
    Since June 2006, I have been in the Office of Inspector General at 
the General Services Administration, working for three Inspectors 
General. Each of them tutored me on how to be an effective Inspector 
General.
    In addition to my present position with the GSA, I headed--for 
almost 4 years--the OIG's compliance office reporting directly to the 
GSA Inspector General. From there, I stood up the GSA OIG's first audit 
report writing and editing team. As lead editor, I oversaw the 
production of the OIG's audit reports--an OIG's first-line of 
communication with its agency. Our team's objective was to ensure that 
an audit report was readable, objective, and usable.
    Throughout its history, Ex-Im's unique mission has helped finance 
the export of American goods and services in order to support American 
jobs.
    If confirmed, my goal will be to provide Ex-Im's leaders with 
timely and objective findings and understandable and usable 
recommendations regarding the Agency's programs and operations and to 
inform Ex-Im's leaders of any fraud, waste, or abuse the OIG uncovers.
    If confirmed, I commit to overseeing rigorous investigations to 
pursue the facts wherever they may lead.
    As a Senator Grassley alum, he set the standard for me, among many, 
when it comes to Inspectors General and educated me on the key role an 
OIG plays in an agency's success. Senator Grassley taught me that 
whistleblowers are to be respected and taken seriously.
    If I am confirmed, I will ensure that the Office of Inspector 
General at Ex-Im has an open-door policy and provides every opportunity 
for those who want to report on information that they may have on any 
waste, fraud, or abuse occurring at Ex-Im. If I am confirmed, the 
Office of Inspector General will see to it that whistleblowers receive 
every protection afforded to them by the law.
    I am also well aware of Congress' role in the responsible use of 
taxpayer resources. If confirmed, I intend to maintain a strong and 
open line of communication with this Committee, the Senate, and the 
House of Representatives.
    Mr. Chairman, my time with GSA OIG has attuned me to the role a 
fully functioning, objective, and independent Office of Inspector 
General plays in an agency's success. I call this ``regular order.''
    I understand Ex-Im has strong supporters and strong detractors. As 
you know, Ex-Im's Board of Directors has only recently returned to 
regular order with a quorum.
    This is all the more reason to return Ex-Im's Office of Inspector 
General to its own regular order. Since the Ex-Im Inspector General 
position became vacant in June 2014, the OIG's dedicated professionals 
have supported its continued operations. But Senate confirmed 
leadership in an independent Office of Inspector General is more likely 
to have greater influence on Ex-Im, and more likely to have the 
confidence of Ex-Im's proponents, as well as its detractors.
    My approach as Inspector General would not be to act as Ex-Im's 
adversary or its enemy. Instead, I would intend to foster a healthy, 
productive, and open professional relationship with Ex-Im.
    Along with restoring a sense of regular order to Ex-Im's Office of 
Inspector General--if confirmed--I would like to review several 
programs and initiatives that I have read about in the OIG's last two 
Semi-Annual Reports to Congress.
    In conclusion, Mr. Chairman, if I am fortunate enough to be 
confirmed, I firmly believe that I am prepared to take the helm of the 
Office of Inspector General at the Export-Import Bank of the United 
States, and I look forward to the challenge.
    Thank you for your time today. I will be pleased to respond to any 
questions you may have.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                     FROM MITCHELL A. SILK

Q.1. Please describe all energy and infrastructure projects you 
worked on while at Treasury that connected foreign countries 
with U.S. partners. For each project, please include:

  <bullet>  how your office identified the project,

  <bullet>  the nature of the project,

  <bullet>  the current status of the project,

  <bullet>  the parties involved (i.e., which U.S. and/or 
        foreign Governments and companies partnered with which 
        countries), and

  <bullet>  whether climate change was considered in the course 
        of the project, and if so, what particular issues were 
        considered and how were they addressed.

A.1. Treasury's energy and infrastructure projects can be 
broadly divided into two regional initiatives in Latin America 
and Asia. The main focus of Treasury's work in both regions is 
to identify investment initiatives in partner countries and 
work with our partners to create enabling environments that 
will catalyze private capital solutions for these initiatives. 
To that end, Treasury has pursued bilateral energy and 
infrastructure financing frameworks with partner countries in 
these regions, and advanced bilateral work under these 
agreements. Treasury's efforts focus primarily on the macro and 
systemic issues rather than at the specific project level. In 
order to achieve scale and impact through these initiatives, 
most focus on programmatic investment opportunities, though 
some initiatives revolve around large, capital-intensive 
projects.
    As the President's 2017 National Security Strategy makes 
clear, stable, friendly and prosperous States in Latin America 
enhance U.S. security and benefit the U.S. economy. Therefore, 
Latin America was Treasury's first region of focus for its 
energy and infrastructure initiatives. Treasury has signed 
bilateral energy and infrastructure financing frameworks with 
Chile, Argentina, Panama, Colombia, and Jamaica. We are 
actively working to negotiate and sign frameworks with 
additional partners in the region and sometimes provide advice 
to other regional partners even in the absence of official 
frameworks. We are focused on unlocking private capital 
solutions for investment initiatives in areas including, but 
not limited to, transmission infrastructure, regional 
interconnection, power and electricity generation, grid 
management solutions to ensure system stability (including 
facilitating renewables), renewables ``value add'' projects 
(such as energy storage), energy efficiency, and energy and 
infrastructure financial market development.
    Given Asia's status as one of the most economically dynamic 
regions globally, the Trump administration has made Asia a key 
area of focus for U.S. economic statecraft. Treasury has 
supported the Trump administration's efforts in Asia by 
developing a regional energy and infrastructure financing 
program that shares certain areas of focus with Treasury's work 
in Latin America. Treasury's initiatives in Asia can be divided 
between work with middle income partner countries and high 
income partner countries. In middle income partner countries, 
the goal is to identify similar investment initiatives as in 
Latin America and create the enabling environment to catalyze 
private capital solutions for investment in those areas. In 
high income partner countries, Treasury's initiatives seek to 
enhance energy and infrastructure financial markets to catalyze 
additional institutional investment in energy and 
infrastructure projects in the region. Treasury has signed 
bilateral energy and infrastructure financing frameworks with 
South Korea, Singapore and Vietnam. We are actively working to 
negotiate and sign frameworks with additional partners in the 
region.
    An example of a project undertaken through Treasury's 
initiatives includes work we have undertaken with Panama's 
primary utility, ETESA. Treasury's Office of Technical 
Assistance (OTA) and Office of Energy and Infrastructure have 
worked with ETESA in areas including debt capacity, asset 
management, and governance. With respect to debt capacity, OTA 
has worked extensively to assist ETESA to allow for additional 
and more efficient debt financing to fund much needed expansion 
of transmission, interconnection and distribution capacity, 
including capacity critical to address grid stability that will 
accommodate increases of renewable energy capacity to the 
system. Treasury's work contributed to ETESA achieving a long-
term private capital markets refinancing of a number of short-
term, high priced loans and ETESA's securing a favorable credit 
rating. We estimate that Treasury's work will result in debt 
service savings for ETESA of up to $47 million over the 
lifetime of its new $500 million bond.
    Environmental protection is a key component of Treasury's 
energy and infrastructure finance initiatives. For example, 
Treasury is working to create enabling environments for 
enhanced private investment in (1) grid solutions that will 
accommodate increased power production through renewables and 
(2) retrofitting and refurbishment programs designed to reduce 
carbon emissions in partner countries reliant on fossil fuel 
power generation. In area (1), many of Treasury's partners have 
embarked on aggressive programs to increase power production 
capacity through renewable sources such as solar and wind. The 
intermittency of production through solar and wind present 
significant challenges to grid management and stability. Thus, 
significant investment in transmission and interconnection is 
typically required in order for renewable power production to 
achieve its desired benefits. In area (2), many of Treasury's 
partners are presently heavily reliant on fossil fuel in the 
power generation that supports their industrial growth. Many of 
our middle income Asian partner countries are over 80 percent 
reliant on fossil fuel. One of our initiatives proposes 
retrofitting and refurbishment of downstream power generation 
in those jurisdictions reliant on fossil fuel to achieve the 
two important goals of substantially reducing (a) carbon 
emissions as these countries transition to cleaner forms of 
power generation and (b) operation and maintenance costs.

Q.2. To the extent possible, please describe the projects that 
you expect to advance in the next year. If you are unable to 
describe a project, please indicate why.

A.2. In the next year, we expect to advance Treasury's 
initiatives in both Latin America and Asia. Specifically, we 
expect to: (1) sign energy and infrastructure financing 
frameworks with additional partner countries that are currently 
under negotiation; and, (2) continue work under existing 
frameworks to create enabling environments to help catalyze 
private capital investment in partner countries' energy and 
infrastructure markets. We are presently at an advanced stage 
of negotiation with Brazil and Peru in Latin America, and the 
Philippines and Thailand in Asia. We have been working with 
additional countries in both regions. Specific examples of 
continued work under existing frameworks include initiatives to 
enable investments in portfolios of (a) micro- and mini-grid 
solutions suitable for (i) public facilities, (ii) private 
facilities and (iii) rural communities; and (b) municipal 
multimodal energy efficiency projects.

Q.3. To what extent is climate change considered during project 
selection and design? What, if any, climate policy goals do you 
seek to accomplish with each project?

A.3. Environmental protection is a key component of Treasury's 
energy and infrastructure finance initiatives. For example, 
Treasury is working to create enabling environments for 
enhanced private investment in (1) grid solutions that will 
accommodate increased power production through renewables and 
(2) retrofitting and refurbishment programs designed to reduce 
carbon emissions in partner countries reliant on fossil fuel 
power generation. In area (1), many of Treasury's partners have 
embarked on aggressive programs to increase power production 
capacity through renewable sources such as solar and wind. The 
intermittency of production through solar and wind present 
significant challenges to grid management and stability. Thus, 
significant investment in transmission and interconnection is 
typically required in order for renewable power production to 
achieve its desired benefits. In area (2), many of Treasury's 
partners are presently heavily reliant on fossil fuel in the 
power generation that supports their industrial growth. Many of 
our middle income Asian partner countries are over 80 percent 
reliant on fossil fuel. One of our initiatives proposes 
retrofitting and refurbishment of downstream power generation 
in those jurisdictions reliant on fossil fuel to achieve the 
two important goals of substantially reducing (a) carbon 
emissions as these countries transition to cleaner forms of 
power generation and (b) operation and maintenance costs.

Q.4. How will you use your role in international fora to 
advocate for policies and projects that address climate change?

A.4. Since I joined the Treasury Department in 2017, I have 
worked to enhance environmental protection in the context of 
Treasury's international work. As discussed above, 
environmental protection is a key component of Treasury's 
energy and infrastructure finance initiatives. For example, 
Treasury is working to create enabling environments for 
enhanced private investment in (1) grid solutions that will 
accommodate increased power production through renewables and 
(2) retrofitting and refurbishment programs designed to reduce 
carbon emissions in partner countries reliant on fossil fuel 
power generation. In area (1), many of Treasury's partners have 
embarked on aggressive programs to increase power production 
capacity through renewable sources such as solar and wind. The 
intermittency of production through solar and wind present 
significant challenges to grid management and stability. Thus, 
significant investment in transmission and interconnection is 
typically required in order for renewable power production to 
achieve its desired benefits. In area (2), many of Treasury's 
partners are presently heavily reliant on fossil fuel in the 
power generation that supports their industrial growth. Many of 
our middle income Asian partner countries are over 80 percent 
reliant on fossil fuel. One of our initiatives proposes 
retrofitting and refurbishment of downstream power generation 
in those jurisdictions reliant on fossil fuel to achieve the 
two important goals of substantially reducing (a) carbon 
emissions as these countries transition to cleaner forms of 
power generation and (b) operation and maintenance costs.
    If confirmed, I would leverage my role in other 
international fora (including outside of the energy and 
infrastructure context) to continue to promote policies that 
appropriately advance environmental protection.

Q.5. What are your priorities as Treasury representative for 
the Financial Stability Board's Standing Committee on 
Assessment of Vulnerabilities?

A.5. The Financial Stability Board's (FSB) Standing Committee 
on Assessment of Vulnerabilities (SCAV) is tasked by the FSB 
with monitoring and assessing vulnerabilities in the global 
financial system and proposing to the FSB Plenary actions 
needed to address these vulnerabilities. Treasury's Under 
Secretary for International Affairs is Treasury's designated 
member of the SCAV. The Under Secretary has from time to time, 
however, delegated responsibility for representing the Treasury 
Department at the SCAV to the Assistant Secretary for 
International Markets.
    To the extent that I participate in the SCAV either in my 
current Acting capacity or, if confirmed, as the Assistant 
Secretary for International Markets, my priorities would lie in 
two areas. First, I would seek to support U.S. interests at the 
SCAV, particularly by preventing outcomes at the SCAV that 
would contravene U.S. interests. Second, I would leverage my 
30-year history operating in the financial markets globally and 
the immense expertise of Treasury's career staff to provide 
market insights in order to further the SCAV's mission of 
vulnerability identification and development of policies to 
remedy vulnerabilities. Such areas of focus for vulnerability 
identification may include, but are not limited to, nonbank 
financial intermediation, LIBOR transition, data localization, 
and digital assets (including stablecoins).

Q.6. In your work prior to joining Treasury, did you provide 
any services or legal advice on projects related to China's 
Belt and Road Initiative? If so, please describe them.

A.6. Prior to joining Treasury, I regularly represented Chinese 
clients with respect to banking and corporate transactions, 
including in the energy and infrastructure sectors, but I did 
not provide any services or legal advice to projects that 
identified with China's Belt and Road Initiative. I believe 
that China's Belt and Road Initiative, which was announced in 
2013, poses a clear threat to U.S. interests and those of our 
allies and partners around the world. As I discussed in my 
opening statement, I have 30 years of experience working on 
large and complex cross-border investment, bank regulatory, and 
finance matters, focusing heavily on the energy and 
infrastructure sectors. Since joining Treasury, I have put my 
experience to work advancing U.S. interests including by 
offering allies and partners alternatives to projects of the 
type that are associated with China's Belt and Road Initiative, 
with a view toward providing healthy global growth solutions. 
If confirmed, I will continue to do so.

Q.7. How should the United States ensure foreign countries have 
alternatives to China for infrastructure projects? What 
resources should Congress provide to that end?

A.7. In order to ensure that foreign countries have 
alternatives to China for infrastructure projects, the U.S. 
Government should continue to pursue initiatives in the area of 
global infrastructure development and finance. These programs 
will support our partners in making necessary governmental 
reforms in order to create an enabling environment for 
infrastructure projects to be led and financed by the private 
sector. Working in tandem with institutions such as the U.S. 
International Development Finance Corporation and the World 
Bank, private sector investments in infrastructure are the key 
to providing a sustainable, market based alternative to China's 
unsustainable, nonmarket practices in the area of global 
infrastructure. These solutions leverage the comparative 
advantage that the U.S. has in its deep and liquid capital 
markets. The U.S. must also work on ensuring that global 
infrastructure projects are transparent and subject to 
governance best practices. To this end, the U.S. recently 
joined with our partners to develop the G20's Principles for 
Quality Infrastructure Investment, which have at their core a 
commitment to transparency and anticorruption in infrastructure 
development and finance.
    The Administration is currently working with Congress to 
stand up the U.S. International Development Finance Corporation 
and authorize a capital increase for the World Bank. These 
initiatives, combined with existing bilateral and multilateral 
development efforts, including Treasury's efforts to unlock 
private capital, will provide significant resources through 
which the United States, our allies, and partners can offer 
alternatives to Chinese investment in infrastructure.
                                ------                                


         RESPONSES TO WRITTEN QUESTIONS OF SENATOR REED
                     FROM MITCHELL A. SILK

Q.1. I was a cosponsor of the Better Utilization of Investments 
Leading to Development (BUILD) Act, which became law last year. 
I believe that China represents a generational challenge that 
requires a whole of Government approach. This law and the new 
International Development Finance Corporation it created will 
be an important tool to counter China's growing influence, 
particularly as it relates to its Belt and Road Initiative, but 
also will be useful in our stabilization and countering violent 
extremism efforts.
    If confirmed, do you commit to fully implement the BUILD 
Act and that you will work to ensure that efforts to stand up 
the new Development Finance Corporation are successful?

A.1. The BUILD Act is a critical component of modernizing the 
U.S.' approach to development finance and advancing U.S. 
interests globally. I commit, if confirmed, to working to both 
implement the BUILD Act and ensure that efforts to stand up the 
new Development Finance Corporation are successful.

Q.2. Please explain the role that you believe that foreign and 
development assistance plays in American efforts to counter 
violent extremism and Chinese influence across the globe.

A.2. I believe that foreign assistance and development 
assistance can each play an important role in American efforts 
to counter violent extremism and Chinese influence across the 
globe. With respect to foreign assistance, this important area 
of work can help build foreign Government capacity to more 
effectively manage private sector-led economic growth, thereby 
serving as a contributing factor to counter violent extremism 
and Chinese influence. For example, Treasury's Office of 
Technical Assistance provides technical expertise to foreign 
Governments on designing procurement processes, which help 
ensure that the private sector can compete in foreign 
countries, enhancing economic growth over the long-term.
    In the case of development assistance, the U.S.' 
development assistance efforts, and the new International 
Development Finance Corporation in particular, are critical to 
providing solutions in areas and projects where the private 
market may not be otherwise able to meet requirements, and the 
provision of U.S. development finance to these areas or 
projects is supportive of U.S. national interests.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
             SENATOR MENENDEZ FROM MITCHELL A. SILK

Q.1. I am increasingly concerned that the United States is not 
well positioned to engage in economic statecraft for the 
twenty-first century, including promoting U.S. jobs, business 
and economic interests, engaging in development financing for 
infrastructure and other needs--including climate change-
related resiliency--and setting standards for emergent 
technologies and the digital economy. As I work on a bill that 
would address these goals, I want to get your perspective on 
the current tools of our economic statecraft that you would 
have in your toolkit.
    Can you expand upon how you view your role and your 
institution's role, if you are confirmed, in helping to renew 
and replenish U.S. economic statecraft instruments?

A.1. The Treasury Department is focused on the conduct of 
economic statecraft as part of its core objective of supporting 
U.S. interests. Specifically, Treasury's Strategic Plan 
provides for five strategic goals, each of which supports this 
core objective: (1) boost U.S. economic growth; (2) promote 
financial stability; (3) enhance national security; (4) 
transform Government-wide financial stewardship; and (5) 
achieve operational excellence.
    If confirmed as Assistant Secretary for International 
Markets, I would focus on strategic goals (1)-(3), where the 
Assistant Secretary for International Markets has a leading 
role. This includes import work in the following areas:

  <bullet>  Advancing international financial stability through 
        development of international financial regulatory 
        policies, including through engagement with 
        international bodies like the Financial Stability Board 
        (FSB);

  <bullet>  Supporting the Administration's efforts to 
        rebalance the U.S.' trading relationships and protect 
        U.S. firms and workers against unfair foreign trade 
        practices, especially with respect to financial 
        services;

  <bullet>  Assisting allies globally with budget management, 
        procurement processes, and other technical functions 
        through our Office of Technical Assistance; and

  <bullet>  Promoting private capital solutions in energy and 
        infrastructure finance to support responsible global 
        growth.

Q.2. Where do you see the biggest challenges and opportunities?

A.2. The biggest challenge that the U.S. faces internationally 
is competition with nonmarket economies that threaten long-term 
global economic growth and seek to actively thwart U.S. 
interests abroad. With respect to opportunities, there are 
abundant opportunities globally to advance U.S. interests by 
promoting development of market-based solutions that support 
global and U.S. economic growth, which will enhance U.S. 
national security in the process. In particular, compelling 
opportunities are the rebalancing of the U.S.' trade 
relationships and the development of private capital solutions 
to global energy and infrastructure finance needs.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                     FROM MITCHELL A. SILK

Q.1. What do you consider to be the greatest risks to 
international financial stability?

A.1. The Treasury Department is constantly monitoring risks to 
both domestic and international financial stability, and, if 
confirmed as Assistant Secretary for International Markets, I 
would support the Department's critical work in this area. 
Certain recent areas of focus include, but are not limited to, 
Brexit, Central Counterparty Clearing (CCP), wholesale funding 
market structure, cybersecurity, reference rate transition, and 
the financial market implications of long-term changes in the 
conduct of global monetary policy.

Q.2. How will you engage with the international financial 
regulatory bodies such as the Financial Stability Board to 
monitor and mitigate those risks?

A.2. If confirmed as Assistant Secretary for International 
Markets, to the extent that I am engaged with international 
financial regulatory bodies, including the Financial Stability 
Board (FSB), I would focus on working with those bodies to 
monitor and develop policies to mitigate risks to international 
financial stability. In particular, I would leverage the 
immense expertise of Treasury's career staff in engaging with 
these bodies. My professional background, including 30 years of 
experience in financial markets and history as a bank 
regulatory lawyer, would also inform my engagement.

Q.3. What structural reforms do you believe are needed to 
increase the access of American exporters to international 
markets?

A.3. At the most general level, the structural reforms that 
would increase American exporter access to international 
markets are those that would support and enable private capital 
solutions to support such exports. These reforms would vary 
from country to country, and include policy, legal, regulatory, 
financial market and institutional reforms. At a more specific 
level, the primary structural reforms needed to increase the 
access of American exporters to international markets involve 
the removal of barriers that foreign Governments have imposed 
that prevent American exporters from fair access to their 
markets. These barriers can include both tariff and nontariff 
barriers. The Administration is actively engaged in removing 
these barriers to U.S. exports, including, but not limited to, 
unfairly high tariffs on American exports, weak intellectual 
property protections, forced technology transfers, excess 
industrial capacity, and lack of enforceable dispute resolution 
mechanisms.

Q.4. You previously worked as a senior partner at the law firm 
Allen & Overy LLP.
    Describe the types of clients you represented as well as 
some of the major cases that you worked on.

A.4. During my legal career, I specialized in large and complex 
cross-border finance, investment and asset management matters, 
as well as bank regulatory issues. With respect to cross-border 
finance matters, I represented some of the largest, most 
sophisticated global financiers (commercial banks, multilateral 
development banks, export credit agencies, and other financial 
institutions) on large and complex financings internationally. 
Many of these transactions financed large energy and 
infrastructure projects. In my cross-border investment work, I 
represented large corporations in cross-border direct 
investments completed through mergers, acquisitions, and joint 
ventures. Many, but not all, of these transactions were in the 
energy and infrastructure and financial services sectors. In 
the area of asset management, I mainly represented large asset 
managers in the structuring and formation of cross-border 
private investment funds, including regulatory structuring 
exercises across numerous jurisdictions. With respect to bank 
regulatory matters, I represented numerous foreign banks before 
the Federal and New York State banking regulators in connection 
with over 50 applications for licenses and charters to expand 
their banking operations in the United States. I also assisted 
U.S. and European financial institutions with financial 
regulatory matters relating to their expansion into the Chinese 
market.

Q.5. Did you represent any individual or entity that could 
materially impact from policies that you will help develop?

A.5. Any potential conflicts of interest have been identified 
and resolved in accordance with the terms and conditions of my 
ethics agreement with the Department of the Treasury, which is 
documented by letter to Treasury's Designated Agency Ethics 
Official and Assistant General Counsel for General Law, Ethics, 
and Regulation. Should any potential conflict of interest arise 
in the future, I will seek guidance from a career Treasury 
ethics official.

Q.6. Are you aware of any conflicts of interests associated 
with current issues in your portfolio at Treasury that could 
impact the clients and issues that you worked on as private 
attorney?
    If so, please list them and describe how you intend to 
resolve them.
    Should any such conflicts arise resulting from new matters 
that emerge within your portfolio, will you commit to recuse 
yourself from all deliberations associated with those matters?

A.6. Any potential conflicts of interest have been identified 
and resolved in accordance with the terms and conditions of my 
ethics agreement with the Department of the Treasury, which is 
documented by letter to Treasury's Designated Agency Ethics 
Official and Assistant General Counsel for General Law, Ethics 
and Regulation. Should any potential conflict of interest arise 
in the future, I will seek guidance from a career Treasury 
ethics official.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                    FROM BRIAN D. MONTGOMERY

Q.1. In its Housing Finance Reform Plan HUD proposed to move 
Federal Housing Administration (FHA) insurance pricing from 
level pricing to tiered pricing ``to diminish the drain of 
FHA's higher risk loans on the MMIF.''
    What borrower or loan characteristics would FHA use to set 
pricing tiers under this proposal?
    How would tiered FHA pricing affect housing costs and 
access to credit for the lowest income borrowers and those who 
struggle to access home ownership? Please provide any models or 
data that FHA has produced to model the impact of this proposal 
on different subsets of borrowers.
    How would tiered FHA pricing affect the size and 
characteristics (for example, average loan size, average credit 
score, average borrower income) of the entire FHA book of 
business?
    Has FHA conducted an analysis of any disparate impacts on 
protected classes under the Fair Housing Act that a tiered 
pricing system might cause? If so, please share that analysis. 
If not, would FHA or any other office within HUD conduct such 
an analysis before moving forward with a tiered pricing 
proposal?
    In its Housing Finance Reform Plan HUD proposed to make FHA 
an autonomous corporation to ``provide FHA greater control over 
staffing and procurement, including technology.''
    Please describe how FHA and other Offices within HUD rely 
on Department-wide staffing and procurement resources.
    If FHA currently relies, in whole or in part, on human 
capital and procurement through a Department-wide office or 
function, why are those Department-wide offices insufficient 
for FHA?
    Do those Offices currently meet all of the staffing and 
procurement needs of HUD's other offices?
    If so, why are the staffing and procurement needs of FHA 
not able to be served by these Department-wide functions? If 
not, should staffing and procurement functions be improved for 
the Department as a whole, rather than just for FHA?
    As a corporation with additional control over staffing and 
procurement, would FHA need additional staff and other 
resources beyond what is required or projected under the 
current structure to support staffing and procurement 
functions?
    FHA is currently subject to appropriations, and receipts 
from FHA help fund other critical programs within HUD.
    Under the corporation structure that you have proposed, 
would FHA still be subject to the appropriations process 
exactly as it is today?
    If FHA is still subject to the appropriations process 
exactly as it is today, would FHA request additional 
appropriations to fund staffing and procurement needs under a 
corporation structure?
    If FHA's appropriations status is altered to reduce or 
eliminate any offsetting receipts that can be used by Congress 
to fund other functions of the Department, would HUD and the 
Trump administration request and advocate for sufficient 
funding to maintain all HUD services at current or higher 
funding levels, including appropriately adjusted rental 
subsidies, throughout the rest of the Department?
    If FHA is still subject to the appropriations process 
exactly as it is today, what are the benefits of moving FHA to 
a corporation structure?
    Mr. Montgomery, in HUD's Housing Finance Reform Plan said 
that FHA should provide a path for borrowers to ``graduate to 
nongovernment-supported mortgages'' and raised questions about 
whether borrowers getting a second FHA loan was consistent with 
FHA's mission.
    As you know, FHA is not just a first-time home buyer 
program.
    Why would HUD limit creditworthy borrowers' participation 
in the FHA program?
    A working paper published by the Federal Housing Finance 
Agency showed no meaningful difference in loan performance 
between first-time and repeat home buyers once other 
characteristics were controlled for. \1\ Does FHA have reason 
to believe that the performance of first-time home buyers 
relative to the performance of repeat home buyers within its 
portfolio is meaningfully worse? If so, please share that 
analysis. If not, please explain why HUD believes it may be 
appropriate to limit FHA mortgages to first-time home buyers, 
rather than offering repeat borrowers the option to choose the 
mortgage product that is best for their financial 
circumstances.
---------------------------------------------------------------------------
     \1\ https://www.fhfa.gov/PolicyProgramsResearch/Research/
PaperDocuments/FHFA_Working_Paper_15-2.pdf

A.1. Thank you for your Questions regarding HUD's plan to 
reform the Nation's housing finance system. The Housing Finance 
Reform Plan, which I'm pleased to have played a leading role in 
developing, is a comprehensive compilation of administrative 
and legislative proposals. As you note in your questions, the 
administrative reforms include recommendations that FHA develop 
and implement a tiered pricing system in order to protect the 
Mutual Mortgage Insurance Fund and ensure it is pricing 
appropriately for higher-risk loans, and that FHA should 
examine the impact of repeat borrowers on the MMIF and ensure 
these loans are consistent with its mission, in particular 
borrowers using downpayment assistance with higher default 
rates. With respect to legislative proposals, the plan 
recommended that Congress enact legislation to restructure FHA 
as an autonomous Government corporation within HUD top help 
promote administrative flexibility and to better ensure FHA has 
a consistent level of funding for technology year-to-year. We 
appreciate the interest you are taking in these specific 
recommendations.
    As the Department develops proposals to implement these 
recommendations, we would be pleased to brief you and your 
staff and respond to any concerns you may have. Furthermore, as 
Secretaries Carson and Mnuchin also stated during their 
testimony before the Committee, the Administration is committed 
to working with the Senate Banking Committee on comprehensive, 
bipartisan housing reform legislation.

Q.2. HUD's Housing Finance Reform Report repeatedly mentions 
returning FHA to its core mission. How do you define FHA's core 
mission?

A.2. FHA serves the American taxpayers through the core 
functions of providing countercyclical liquidity in the housing 
market in the event of an economic downturn and fostering 
increased home ownership and affordable rental opportunities 
for qualified low- to moderate-income individuals.

Q.3. In FHA's FY2019 Annual Report to Congress Regarding the 
Status of the FHA Mutual Mortgage Insurance Fund, you noted 
that third party sales of FHA loans now make up about two-
thirds of all FHA loan dispositions. This is far greater than 
REO dispositions, which made up just over one quarter of all 
FHA loan dispositions.
    The shift away from REO to third party sales has been 
sizable. As recently as 2013, REO still made up the vast 
majority of FHA dispositions. But it is not clear what impact 
third party sales have on the local markets or the availability 
of starter homes. Unlike REO properties, properties disposed 
through a third party sale are not available for HUD 
revitalization initiatives, like the Revitalization Area Sales 
Program and Good Neighbor Next Door Program. They are also not 
available for bulk sale to local governments and nonprofits who 
can make these properties available at a reasonable cost to 
lower-wealth home buyers, consistent with HUD's mission.
    Does FHA collect data on the purchaser of and the ultimate 
outcome for all FHA loans that are disposed of through third 
party sales?
    If so, what proportion of properties sold through the 
third-party sales process go directly or indirectly to a 
resident for home ownership or a nonprofit intending to prepare 
the property for home ownership, and what proportion are sold 
directly or indirectly to institutional investors, single-
family rental companies, or other nonresident owners?
    If not, why does FHA not collect this data? Does FHA intend 
to begin collecting this data?
    How has the transition from a predominantly REO, 
conveyance-based asset disposition process to a predominantly 
third party sales, claim without conveyance of title-based 
asset disposition process impacted FHA Revitalization Areas and 
initiatives like the Good Neighbor Next Door program?
    Do you believe that FHA asset disposition strategies are a 
component of HUD's overall mission?

A.3. FHA does not currently have the capability to collect 
information on the purchaser and ultimate outcome of properties 
disposed through third party sales. It is important to note 
that foreclosed properties are insured by HUD, but not owned by 
HUD, at the time of a third-party sale. Also, the foreclosure 
sale process is open to the public to purchase foreclosed 
properties, including but not limited to private individuals, 
nonprofits, and local investors.
    HUD believes that increasing the number of properties sold 
at third party sale has benefited communities and taxpayers. 
The benefit of selling properties through a third-party sale is 
that it allows the property to be sold more quickly, thus 
reducing neighborhood blight and potential vandalism that can 
occur with foreclosed properties. The other major benefit of 
third-party sales is that it has resulted in a significant 
reduction in losses to the MMI fund. In FY2019, the average 
loss severity rate on all disposed properties declined to a 13-
year low of 40.73 percent. One of the key reasons for the 
reduction in loss severity is the increase in properties sold 
as third-party sales.
    HUD believes that effective property disposition strategies 
are a key component to ensuring a sustainable FHA program for 
low- and moderate-income homeowners.

Q.4. HUD recently promoted Eric Blankenstein to be Executive 
Vice President of the Government National Mortgage Association 
(Ginnie Mae). In May 2019, Mr. Blankenstein resigned from the 
Consumer Financial Protection Bureau (CFPB) shortly after the 
Federal Reserve Inspector General issued a report stating that 
Mr. Blankenstein may have abused his authority, may have 
misused his position for private gain, and had created an 
appearance of a violation of the Standards of Ethical Conduct 
for Employees of the Executive Branch. As I stated in a letter 
sent to Secretary Carson in July 2019, it is my understanding 
that HUD officials requested the Inspector General's report in 
June 2019.
    Were you involved in or aware of the decision to hire Eric 
Blankenstein as a Senior Counsel at HUD, a position he started 
on June 24, 2019?
    If you were involved in the decision to hire Mr. 
Blankenstein, did you recommend that HUD hire Mr. Blankenstein?
    If you were involved in or aware of the decision to hire 
Mr. Blankenstein, did you review the Inspector General report 
on Mr. Blankenstein's conduct at CFPB prior to the decision to 
hire Mr. Blankenstein? If you did not review the report, why 
not?
    Were you involved in or aware of the decision to promote 
Mr. Blankenstein to the position of Executive Vice President at 
Ginnie Mae?
    If you were involved in the decision to promote Mr. 
Blankenstein, did you recommend that HUD promote Mr. 
Blankenstein?
    If you were involved in or aware of the decision to promote 
Mr. Blankenstein, did you review the Inspector General report 
on Mr. Blankenstein's conduct at CFPB prior to the decision to 
promote Mr. Blankenstein? If you did not review the report, why 
not?
    Did you ever have any conversations with White House staff 
regarding the decision to hire or promote Mr. Blankenstein?
    Do you believe it is appropriate to promote an employee who 
has been the subject of Inspector General findings, including 
findings related to possible abuse of authority, possible 
misuse of their position for private gain, and the appearance 
of a violation of the Standards of Ethical Conduct for 
Employees of the Executive Branch, within the same year as 
those findings were made?

A.4. HUD does not comment on personnel matters.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR MORAN
                    FROM BRIAN D. MONTGOMERY

Q.1. Agencies under the jurisdiction of this Committee have 
worked recently to transfer financial risk from taxpayers into 
the private reinsurance market. Specifically, the Ex-Im Bank 
and the National Flood Insurance Program (NFIP) have entered 
into reinsurance arrangements to reduce exposure in case of a 
spike in defaults or another catastrophic weather event, 
respectively. In fact, NFIP was able to recover over $1 billion 
for the taxpayer after Hurricane Harvey hit Houston in 2017.
    In the housing finance market, Fannie Mae and Freddie Mac 
have established risk transfer programs using the private 
market to transfer some of the GSE's risk on a majority of loan 
acquisitions. Would this type of arrangement also help protect 
taxpayers who are backing FHA in the event of another 
significant housing downturn? Will you commit to looking into 
this issue during your tenure as Deputy Secretary and update me 
on your efforts?

A.1. To better protect American taxpayers, it is appropriate to 
develop and implement a risk management framework that will 
better allow FHA to measure and monitor current, emerging and 
future mortgage credit risk. An economically viable Credit Risk 
Transfer (CRT) program would introduce private sector 
investment and reduce the risk to the overall FHA portfolio and 
taxpayers. It is important for FHA to continue to evaluate the 
options, feasibility, and economics of a CRT program with the 
purpose of exploring options to reduce the overall risk to the 
taxpayer and still serve our mission borrowers. I look forward 
to the opportunity to keep you updated on these efforts which 
are ongoing.
                                ------                                


         RESPONSES TO WRITTEN QUESTIONS OF SENATOR REED
                    FROM BRIAN D. MONTGOMERY

Q.1. This year, President Trump proposed cutting $12 billion in 
affordable housing and economic development programs. This 
included requesting no money at all for HOME and the Community 
Development Block Grant Program.
    Do you support these proposed cuts?
    If not, what will you do to advocate for HOME and the 
Community Development Block Grant before the President submits 
his budget request for Fiscal Year 2021?

A.1. The budget process is an iterative one between Congress 
and the Administration. Both the House and the Senate have 
included funding for CDBG and HOME in their respective THUD 
appropriations bills. I can commit to you that whatever 
resources Congress sees fit to provide to HUD, we will utilize 
those resources wisely and efficiently.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
           SENATOR MENENDEZ FROM BRIAN D. MONTGOMERY

Q.1. Over the last few years, HUD has relocated key multifamily 
housing staff from its office in Newark to the New York 
regional office. As a former mayor, I understand that this 
presents a significant challenge for landlords, property 
managers, and residents. It's critical that we have HUD boots 
on the ground that are familiar with the local conditions and 
issues facing residents throughout the State. Mr. Montgomery, 
if confirmed, what are you going to do to make sure the Newark 
office has the staff it needs and that New Jersey remains a 
priority at HUD?

A.1. I appreciate you bringing this important issue to my 
attention during our meeting. I want to commit to you that I 
will have my senior FHA staff conduct a thorough quality 
control review of the Northeast Region Multifamily Office to 
determine whether or not the required level of responsiveness 
is being provided during all aspects of the multifamily loan 
life cycle, from predevelopment through closing. The review 
will also provide response rates to New Jersey-based asset 
oversight inquiries on FHA-insured and HUD-subsidized 
portfolios, Project-Based Section 8, Section 202 and Section 
811. If we find anomalies in acceptable service, I will 
personally meet with my leadership team--including our 
Northeast Region Multifamily Director and production, 
underwriting, asset management, appraisal and construction 
analysis staff--to determine the source of the disruption in 
service and possible next steps to remedy the situation.
    I will also commit to implement any changes necessary to 
improve service delivery to the New Jersey market. We have 187 
highly capable FHA colleagues in the Northeast Region dedicated 
to working with our New Jersey lender and developer/owner 
partners, and most importantly our residents. If you or your 
staff are aware of specific instances in which New Jersey is 
receiving inadequate multifamily coverage from HUD, I urge you 
to bring them to my attention.

Q.2. Congress recently appropriated funding for FHA to upgrade 
the agency's infrastructure and operating systems. Mr. 
Montgomery, can you please provide details on the type of 
improvements FHA is planning, the timeline for implementing the 
upgrades, and the benefits taxpayers, lenders, and borrowers 
can expect from these upgrades?

A.2. FHA is undertaking a comprehensive, multiyear 
modernization effort to bring its Information Technology (IT) 
infrastructure into the 21st century. We are actively 
developing a new, single platform that aligns with mortgage 
industry standards and digitizes the overall mortgage process. 
Initially focusing on the Single Family forward mortgage 
program, this modernization effort will create a new data-rich 
environment, opening the doors to advanced risk analytics, 
cost-saving and operational efficiencies, and, ultimately, 
ensuring borrowers are receiving financing that is appropriate, 
sustainable, and optimized for long-term home ownership. FHA is 
actively engaged with the mortgage industry and consumer groups 
to coordinate implementation timelines and to ensure the new 
platform meets the needs of all internal and external 
stakeholders.
    Together, FHA and the Office of the Chief Information 
Officer are working diligently to bring this modernization 
effort to reality and have identified key milestones in the FHA 
Single Family IT Modernization Expenditure Plan.
    In addition, please see the video below on FHA's 
modernization project: https://www.linkedin.com/posts/fed-
housing-admin-today-hud-cio-david-chow-unveiled-a-new-activity-
6594680537078648833-L47r.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                    FROM BRIAN D. MONTGOMERY

Q.1. At your nomination hearing you stated it is ``important to 
preserve and hold on and renovate the aged housing stock.'' 
HUD's requested budget for fiscal year 2020 includes no funding 
for the Public Housing Capital Fund. There is currently an 
estimated $70 billion backlog in critical repairs and 
maintenance for existing public housing. This backlog results 
in approximately 10,000 public housing units being lost every 
year, and subjects tens of thousands of residents to living in 
unsafe and unhealthy conditions.
    Why did HUD decide to request no funding for the Public 
Housing Capital Fund?
    What role did you have in determining requested funding 
levels for the Public Housing Capital Fund?
    How does the elimination of funding for the Public Housing 
Capital Fund comport with your stated commitment to preserving 
aging public housing?

A.1. A program HUD is continuing to utilize to address the 
sustainability of its public housing portfolio is the Rental 
Assistance Demonstration (RAD). Thus far, 126,025 public 
housing units have been converted under RAD and almost 10,000 
units have been replaced by new construction. This amount of 
construction has created an estimated 160,000 jobs. The kind of 
Federal investments necessary to bring all public housing up to 
standards and keep it there is overwhelming and unlikely to 
materialize through the current program structure and 
appropriations. An investment in RAD is a far better long-term 
strategy.

Q.2. The U.S. Department of Treasury Housing Reform Plan 
recommends getting rid of the affordable housing goals, and, as 
an alternative, suggests, ``collect[ing] a periodic assessment 
from guarantors that Congress would make available through an 
appropriation to administer on-budget affordable housing.'' The 
Trump administration budget request for fiscal year 2020 asks 
Congress to zero out or deeply cut existing appropriated 
programs that provide access to home ownership to low- and 
moderate-income Americans including the HOME Investment 
Partnerships Program, the Self-Help Homeownership Opportunity 
Program, the Housing Trust Fund, and Native American Housing 
Block Grants.
    What role did you have in developing this recommendation?
    Do you agree with this recommendation?

A.2. This question is best directed to the Department of the 
Treasury.

Q.3. What was your involvement in putting together the 2019 
Department of Housing and Urban Development's Housing Finance 
Reform Plan? Did you review the plan before it was finalized?

A.3. While my understanding is that there were initial 
discussions on housing finance reform before I rejoined the 
Department on June 5, 2018, I was involved in all phases of the 
drafting of HUD's Housing Finance Reform Plan beginning in 
summer 2018.

Q.4. You served as Acting Deputy Secretary when HUD issued its 
proposed Disparate Impact rule.
    What was the clearance process for this rule? Please 
provide a list of the titles of all career HUD employees and 
names and titles of all appointed HUD employees involved and 
their role in developing and approving this rule.
    Were you part of the clearance process? Please provide all 
emails from January 1, 2019, to August 31, 2019, in which you 
send, receive, or are copied on discussion of the disparate 
impact rule.
    Who at HUD was primarily responsible for drafting the 
disparate impact rule?
    Did you provide performance reviews to any of individuals 
referenced in question 4(a)? Did your performance reviews 
include discussion of their work on the disparate impact rule?
    At your nomination hearing, when asked about your role in 
the disparate impact rule, you stated: ``going forward I'd be 
more involved in that process.'' What would your increased 
involvement with the disparate impact rule constitute, if you 
are confirmed?
    Are there any aspects of the disparate impact proposal that 
you disagree with or would like to be strengthened?

A.4. HUD does not comment on its internal deliberative process 
or personnel matters.
    The comment period for this proposed rule closed on October 
18, 2019, during which time HUD received a total of 45,757 
comments. I believe HUD should seriously consider these 
comments to make sure the disparate impact regulation is as 
effective as possible. This will help plaintiffs bring better 
supported claims and help defendants resolve unsupported claims 
of discriminatory effect quicker.

Q.5. On May 15, 2018, in response to a question from my office 
about your commitment to the HUD/Federal Financing Bank (FFB) 
Risk-Sharing Program, you wrote that you had a ``commitment to 
ensuring that this program remains active and successful'' and, 
if confirmed to lead the Federal Housing Administration, you 
would ``advocate for the continuation of this program and 
sufficient loan commitment authority.'' You were confirmed--and 
less than a year into your tenure, HUD stopped accepting new 
applications for this program. The FY2020 HUD budget request 
includes no funding for the program.
    What was your involvement in HUD's decision not to extend 
the HUD/FFB Risk-Sharing Program? Please provide all emails 
from May 23, 2018, to December 31, 2018, involving you or your 
staff regarding whether to extend the HUD/FFB Risk-Sharing 
Program.

A.5. Prior to my confirmation as FHA Commissioner, I made a 
commitment to you to advocate for continuing the Federal 
Financing Bank Risk-Sharing Program, which was scheduled to be 
terminated at the end of fiscal year 2018. I agreed with you 
that this program had merit and deserved to be extended. 
Ultimately, however, this was not a HUD program and therefore 
not a HUD decision. Despite my best efforts, the program was 
terminated, but not before we were able to provide for a 
temporary extension that allowed it to accept additional 
applications and utilize additional commitment authority until 
the end of the calendar year.

Q.6. You stated that, if confirmed, you are likely to continue 
running the FHA until a replacement is named. How will HUD 
ensure that your dual duty will not impact the administration 
of the FHA, especially given HUD's ongoing vacancy issues? How 
will FHA leadership duties adjust if you are confirmed, and 
before a replacement is named?

A.6. I am supported by an excellent staff, both in the Office 
of the Deputy Secretary and in the Office of Housing. I have 
been filling both of these roles without issue since January 
2019.

Q.7. At your nomination hearing, in response to a question 
about HUD Secretary Ben Carson raising the rents in federally 
assisted housing, you stated: ``no mass evictions will occur as 
long as I am FHA commissioner, Assistant Secretary for 
Housing.''
    FHA Commissioner is your current position. Are you planning 
to implement policies that would lead to mass evictions if 
confirmed as Deputy Secretary?
    In your time serving as FHA Commissioner and Acting Deputy 
Secretary, have you evaluated whether raising rents in 
federally assisted housing would put individuals at risk of 
eviction? If so, please provide any additional documents 
produced by your office or staff; any emails involving you or 
your staff on this question; and a list of evidence you have 
considered.
    If you have not evaluated this, will you commit to 
evaluating the potential impact of rent raises on affordability 
and potential evictions before issuing any proposals or taking 
action to raise rents in federally assisted housing?

A.7. No mass evictions will occur if I am confirmed as Deputy 
Secretary either.

Q.8. In response to being asked about whether there is an 
affordable housing crisis, you stated: ``more so in some areas 
versus others and there's a whole lot of reasons for that.''
    Do you believe there is a national affordable housing 
crisis?
    What geographic areas do you believe are and are not 
experiencing an affordable housing crisis, and what evidence 
are you using to draw that conclusion?
    What ``reasons'' are you referencing in suggesting that 
some areas are not experiencing an affordable housing crisis?

A.8. I think any objective policymaker would acknowledge that 
we don't have a single housing market in this country and 
therefore access to affordable housing differs from one 
jurisdiction to another. There are many reasons for that 
including the fact that some cities and States place fewer 
regulatory burdens for the development of affordable housing 
than others.
    To address access to affordable housing, Secretary Carson 
is honored to serve as the Chair of the White House Council on 
Eliminating Regulatory Barriers to Affordable Housing. The 
Council is engaging with Governments at all levels and other 
private-sector stakeholders to identify and remove obstacles 
that raise the costs of affordable housing development and 
contribute to shortages in America's housing supply.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
         SENATOR CORTEZ MASTO FROM BRIAN D. MONTGOMERY

Q.1. Please explain how HUD will mitigate the affordable 
housing crisis?

A.1. See response to Question 2.

Q.2. Where do you think we have an affordable housing crisis? 
Who is affected by the crisis?

A.2. In addition to HUD's existing programs that provide 
affordable housing--such as the Federal Housing Administration, 
public housing, Housing Choice Vouchers, and housing for the 
elderly and disabled--Secretary Carson is honored to serve as 
the Chair of the White House Council on Eliminating Regulatory 
Barriers to Affordable Housing. The Council is engaging with 
Governments at all levels and other private-sector stakeholders 
to identify and remove obstacles that raise the costs of 
affordable housing development and contribute to shortages in 
America's housing supply.

Q.3. Will you ensure that the 2021 HUD budget request is 
adequate to ensure all individuals and families currently 
receiving assistance can continue to do so?

A.3. Yes. In each of the prior three fiscal years, the 
Administration's Budget proposal has requested a funding level 
for HUD that would allow the 9.5 million individuals and 4.6 
million families currently receiving HUD rental assistance to 
continue to do so.

Q.4. Will you ensure that the 2021 HUD budget request will help 
address the waitlist backlog and ensure than hundreds of 
thousands of eligible families can receive housing assistance?

A.4. Each year, HUD continues to spend more and more money to 
house the same number of individuals and families. If 
confirmed, I look forward to working with you and your staff on 
ways to address these issues by identifying and removing 
obstacles that impede access to, and production of, affordable 
homes nationwide.

Q.5. What changes are you considering, if any, to the Housing 
Trust Fund?

A.5. Only Congress can make changes to the Housing Trust Fund.

Q.6. How will HUD help low-income families with children who 
cannot find an affordable home in a safe community with good 
schools?

A.6. HUD has a number of rental assistance programs--like 
Public Housing, Housing Choice Vouchers, Project-Based Rental 
Assistance, and Tenant-Based Rental Assistance--as well as home 
ownership programs supported by the Federal Housing 
Administration to help low-income families with children who 
cannot find an affordable home in a safe community with good 
schools.

Q.7. What protections for manufactured housing home buyers will 
you ensure remain in any changed housing finance policy?

A.7. See response to Question 8.

Q.8. What has FHA done to improve financing options for 
manufactured housing buyers?

A.8. As part of its Housing Finance Reform plan, HUD is 
considering innovative proposals to modify single-family 
mortgage finance underwriting to further encourage additional 
supply of entry-level housing, including manufactured housing.
    To better support the manufactured housing industry, HUD 
has proposed elevating the Office of Manufactured and 
Innovative Housing Programs within HUD under the leadership of 
a Deputy Assistant Secretary.

Q.9. In your current position, and if confirmed to Deputy 
Secretary, what policies will you implement to increase 
sustainable home ownership for African Americans and Latinos?

A.9. Under my leadership, HUD programs will continue to serve 
all qualified homeowners. For FY2019, 36.24 percent of FHA 
purchase originations served minority borrowers. Moreover, 
while FHA makes up 19.8 percent of the overall mortgage market, 
40.6 percent of all African American home buyers and 37.6 
percent of all Hispanic home buyers who purchased a home during 
CY2018 did so using an FHA-insured mortgage.

Q.10. The Administration's housing finance proposal restricts 
FHA financing to primarily first-time home buyers. The 
Administration recommends that ``Congress should establish FHA, 
VA, and USDA as the sole source of low downpayment financing 
for borrowers not served by the conventional mortgage market.''
    Do you believe that Fannie Mae and Freddie Mac should not 
provide support for responsible, sustainable low downpayment 
mortgages originated by private sector lenders in the primary 
market?
    How would such a restriction affect the Latino and African 
American families who rely on FHA to buy a home?

A.10. This question will be addressed by HUD in its responses 
to your questions for the record from Secretary Carson's 
hearing before the Senate Banking Committee on September 10, 
2019.

Q.11. The Administration recommends legislative action to 
create a multiguarantor model to replace Fannie Mae and Freddie 
Mac without the housing goals or duty-to-serve requirements--
such as affordable housing preservation, rural housing and 
manufactured housing--in the current charters.
    What will HUD do to fill the gap if these housing goals and 
duty-to-serve requirements are eliminated?

A.11. A central principle of the Administration's Housing 
Finance Reform plan is that Federal mortgage credit policies 
should be better coordinated in order to permit credit 
qualified borrowers to access responsible and affordable 
borrowing options. FHFA and FHA are coordinating to ensure the 
GSEs and FHA serve defined roles within the marketplace with a 
clear understanding of overlaps and gaps.

Q.12. The Administration suggests legislative action to 
authorize Ginnie Mae to provide the full faith and credit 
guarantee for Fannie, Freddie and possibly other credit 
enhancing guarantors.
    Can you please elaborate on what steps, roughly how much 
funding would be necessary, and a timeline on which you think 
Ginnie Mae could be made operational for this task?

A.12. This question will be addressed by HUD in its responses 
to your questions for the record from Secretary Carson's 
hearing before the Senate Banking Committee on September 10, 
2019.

Q.13. What was your involvement with the proposed changes to 
HUD's fair housing processes, including the recent disparate 
impact rulemaking?
    What do you say to fair housing advocates that feel the 
five-part test will make it near impossible to bring fair 
housing claims?
    What do you say to fair housing lawyers who say that the 
Supreme Court decision in Inclusive Communities required no 
changes?

A.13. I would encourage fair housing advocates and other 
stakeholders to read the Supreme Court's decision in Texas 
Department of Housing and Community Affairs v. Inclusive 
Communities Project, Inc. (2015). This case discussed the 
standards for, and constitutional and necessary limitations on, 
disparate impact claims.
    The aim of HUD's proposed rule is not to abolish disparate 
impact liability but to make it work better, help plaintiffs to 
bring claims which are better supported, and help defendants to 
resolve unsupported claims of discriminatory effect quicker. 
This will lead to prompt resolution of disparate impact claims 
for all parties, in accordance with Inclusive Communities.

Q.14. Why has HUD closed the Reno, NV Regional HUD Office?
    What services and activities did the HUD field office 
provide?
    Where will those services be provided now?
    How many HUD staff worked in this office at the start of 
2016?
    When did staff begin to get reassigned?
    Where were they reassigned to?
    What notice did HUD provide to legislators, grantees and 
other stakeholders about the closure of the Reno HUD field 
office?

A.14. HUD's Las Vegas field office is effectively and 
efficiently providing coverage for the State of Nevada in the 
same manner in which the Phoenix field office covers the entire 
State of Arizona, the Albuquerque field office covers the 
entire State of New Mexico, the Salt Lake City field office 
covers the entire State of the Utah, and the Portland field 
office covers the entire State of Oregon.
    The Reno field office had three employees at the start of 
2018. By March 2019, the Reno field office director had 
accepted a position as the director of HUD's field office in 
Portland, Oregon and a second employee retired. The last 
remaining employee, a front desk receptionist, was without a 
supervisor and was reassigned to the Los Angeles field office 
in October. The Reno office is currently vacant and all 
workload for Reno and Northern Nevada is being managed by our 
Las Vegas field office.
    HUD's Office of Field Policy and Management followed the 
procedures of the Federal Property Management Reform Act of 
2016 (40 U.S.C. 524), which requires executive departments and 
agencies to assess leased space to identify space that is not 
fully used or occupied, establish goals and policies that will 
lead the agency to reduce excess property and underutilized 
property, and to transfer and dispose of excess property as 
promptly as possible. Closing the Reno field office eliminates 
the cost of office space and administrative costs of $101,000 
per year.
    Our Las Vegas staff has met with the Reno Housing 
Authority, Washoe Affordable Housing Corporation, the Reno 
Police Department, and the Reno Area Alliance for the Homeless 
to discuss providing coverage for our HUD customers and 
grantees.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR JONES
                    FROM BRIAN D. MONTGOMERY

Q.1. As you know, HUD Secretary Ben Carson announced a proposed 
rule to rollback disparate impact discrimination lawsuits. In 
your testimony you mentioned that the Supreme Court wanted 
``safe guards'' to the disparate impact rule. Can you point to 
the specific changes the Supreme Court asked for that are in 
the ANPR? What changes, if any, would you make to the ANPR as 
you become more involved in the process?

A.1. The Supreme Court in Texas Department of Housing and 
Community Affairs v. Inclusive Communities Project, Inc. 
(2015). discussed the standards for, and constitutional and 
necessary limitations on, disparate impact claims. For example, 
the Supreme Court noted that ``disparate impact liability must 
be limited . . . [to help] sustain a vibrant and dynamic free-
enterprise system.''
    The comment period for this proposed rule closed on October 
18th, during which time HUD received a total of 45,757 
comments. I believe HUD should consider these comments 
seriously to make sure the disparate impact regulation is as 
effective as possible. This will help plaintiffs bring better 
supported claims and help defendants resolve unsupported claims 
of discriminatory effect quicker.

Q.2. Community Development Block Grant (CDBG) is a 40-year-old 
program that allocates billions of dollars in grants to State 
and local governments for housing rehabilitation and economic 
development. For the 3rd year in a row, HUD recommended to the 
Senate Appropriations Committee to completely eliminate CDBG 
funding. Were you involved in those conversations? What is the 
reasoning for completely eliminating CDBG?

A.2. The budget process is an iterative one between Congress 
and the Administration. Both the House and the Senate have 
included over $3 billion for CDBG funding in their respective 
THUD appropriations bills. I can commit to you that whatever 
resources Congress sees fit to provide to HUD, we will utilize 
those resources wisely and efficiently.

Q.3. Earlier this year the Senate Appropriations Committee 
included report language in HUD's FY2021 appropriations bill 
that `` . . . encourages HUD to require that mortgagees obtain 
and provide to HUD the tax identification number of a 
governmental entity when a governmental entity provides 
downpayment assistance in the form of a gift or a second 
mortgage.'' If this language is included in the final FY2021 
HUD appropriations legislation, will you commit to not moving 
forward on any administrative changes related to downpayment 
assistance provided by governmental entities until HUD is able 
to collect and analyze a statistically significant amount of 
data on the performance of FHA loans with downpayment 
assistance from a governmental entity?

A.3. As you may know, this is my second tenure serving as 
Federal Housing Commissioner. Previously, when I served during 
the Bush and Obama administrations, I was frustrated by FHA's 
inability to prohibit a form of downpayment assistance (DPA), 
commonly referred to as seller-funded, that ultimately led to 
approximately $16.5 billion in losses to the Mutual Mortgage 
Insurance Fund, according to FHA's independent actuarial 
auditor. Our goal through our current rulemaking on DPA is to 
give clarity on the Housing and Economic Recovery Act (HERA) 
statutory prohibition on providers financially benefiting from 
the assistance they provide. We also need to ensure that 
providers are offering assistance that is in the best interest 
of borrowers and FHA. As we move through the rulemaking 
process, there will be an opportunity for public comment.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                    FROM BRIAN D. MONTGOMERY

Q.1. Modernizing the Federal Housing Administration's (FHA) 
outdated IT systems is critical to improving lender 
relationships and better servicing borrowers. Congress has 
appropriated funding specifically for the Cybersecurity and 
Information Technology Fund in the past. Can you describe some 
of the improvements being made? As Deputy Secretary of HUD, how 
would you direct any additional funding granted in an FY2020 
appropriations bill towards modernization?

A.1. Congressional appropriations have jump started our plan to 
modernize FHA's outdated technology. The systems that operate 
FHA's loan insurance programs are, on average, 18 years old, 
with some over 40 years old. Replacing outdated systems and 
improving associated business processes will ensure that FHA 
continues to perform its vital role in the mortgage market, 
with greater ability to manage its risk at a lower cost and 
increased efficiency. Some of the improvements include 
enhancing the cybersecurity measures to protect data, capturing 
and effectively analyzing extensive volumes of data, 
implementing storage and processing capabilities to handle the 
transition from paper to a digital environment, and managing 
insured loans comprehensively across all phases of the mortgage 
insurance life cycle. In addition, the modernization effort 
would result in cost savings for taxpayers and lenders, 
operational efficiencies, and improved end user experience.
    The direction of additional funding would continue the 
modernization of the Single Family forward mortgage program. 
Together, FHA and the Office of the Chief Information Officer 
are working diligently to bring this modernization effort to 
reality and have identified key milestones in the FHA Single 
Family IT Modernization Expenditure Plan. Please see the video 
below on FHA's modernization project: https://www.linkedin.com/
posts/fed-housing-admin-today-hud-cio-david-chow-unveiled-a-
new-activity-6594680537078648833-L47r.
    In addition, the functional components under development 
can be leveraged for FHA's other lines of business. Loan 
origination, endorsement, servicing, and claims are uniform 
processes for each FHA single family home, multifamily 
property, and healthcare facility. Once components are 
completed, FHA would be able to leverage the Single Family 
Forward baseline functionality to jump start modernization 
efforts for Multifamily, Healthcare, HECM, and Housing 
Counseling programs in future phases.
                                ------                                


         RESPONSES TO WRITTEN QUESTIONS OF SENATOR REED
                    FROM DAVID C. WOLL, JR.

Q.1. This year, President Trump proposed cutting $12 billion in 
affordable housing and economic development programs. This 
included requesting no money at all for HOME and the Community 
Development Block Grant Program.
    Do you support these proposed cuts?
    If not, what will you do to advocate for HOME and the 
Community Development Block Grant before the President submits 
his budget request for Fiscal Year 2021?

A.1. The budget process is an iterative one between Congress 
and the Administration. Both the House and the Senate have 
included funding for CDBG and HOME in their respective THUD 
appropriations bills. I can commit to you that whatever 
resources Congress sees fit to provide to HUD, we will utilize 
those resources wisely and efficiently.

Q.2. Nearly 2 years ago, Congress provided HUD with roughly $16 
billion in Community Development Block Grants for Disaster 
Recovery (CDBG-DR) in order to help areas that were devastated 
by disasters between 2015 and 2017 to rebuild and mitigate 
against future disasters. For more than a year, HUD stalled in 
issuing the Federal Register notices that the affected areas 
need in order to begin planning for the use of their CDBG-DR 
funds. As result, Congress included a provision in Public Law 
116-20 that required HUD to issue the notices by September 4, 
2019.
    HUD complied with this requirement for every community--
except one--Puerto Rico. We are nearly 80 days past the 
statutory deadline. As ranking member of the Transportation-HUD 
Appropriations Subcommittee, my staff and I have submitted 
numerous inquiries to the Department to get the legal 
justification for withholding the Notice for Puerto Rico. HUD 
has not provided an answer.
    In your role as Principal Deputy Assistant Secretary, you 
have been responsible for the oversight of HUD's disaster 
recovery program, including the issuance of Puerto Rico's 
mitigation Notice, since November of 2018.
    What is the legal justification for HUD withholding the 
notice for Puerto Rico, as required by PL 116-20?

A.2. HUD is legally required to assess the risk of each of its 
grantees and to formulate measures to mitigate that risk. OIRA 
has also advised HUD that the mitigation notice and DR grant 
agreements are subject to review by it under Executive Order 
12866 as significant regulatory actions.

Q.3. When will HUD to publish the notice for Puerto Rico and to 
finalize the grant agreement for the base CDBG-DR allocation?

A.3. HUD is working with its Federal partners to finalize the 
grant conditions that will govern the Commonwealth's second 
allocation of CDBG-DR funds. Once those conditions are in 
place, HUD will be positioned to move forward with Puerto 
Rico's mitigation funding.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                    FROM DAVID C. WOLL, JR.

Q.1. At the nomination hearing you said one of your priorities 
was to ``strengthen the stewardship of the Disaster Recovery 
program.''
    Budgets reflect institutional values, and the HUD FY2020 
budget request includes no funding for Community Development 
Block Grant Disaster Assistance. What commitment is there among 
HUD leadership to strengthen the CDBG-DR program? If confirmed 
as Assistant Secretary of the Office of Community Planning and 
Development, what are your specific plans to strengthen this 
program?

A.1. Standardizing CDBG-DR requirements across the various 
CDBG-DR appropriations is one key component of moving CDBG-DR 
funds more rapidly to our grantees. Closer, ongoing 
coordination with the Federal Emergency Management Agency and 
the Small Business Administration, both before and after a 
disaster is also a priority. We will also continue to 
strengthen our oversight and accountability efforts with 
grantees, including implementing many of the recommendations 
from recent GAO reports.

Q.2. You stated you are ``in the process of doubling the size 
of the disaster recovery division, and out-stationing staff 
closer to [HUD] grantees.'' Please provide additional 
information about how HUD is expanding this division, including 
information about any new staffing roles and division areas.

A.2. In FY2018, the Disaster Recovery and Special Issues 
Division was comprised of 22 staff. Over the course of FY2019 
and 2020 we have added an additional 25 staff, more than 
doubling the division's staffing capacity. HUD has also out-
stationed an increasing portion of the staff from HUD 
headquarters to our field offices, building regional grants 
management teams in New York, Atlanta, Forth Worth, and San 
Francisco, to give our grantees better and more efficient 
access to HUD resources and expertise.

Q.3. At the nomination hearing you stated: ``we are not going 
to permit discrimination against transgender individuals'' and 
``we intend to completely enforce the 2012 restriction against 
any discrimination against anybody based on sexual orientation 
or gender identity.''
    Do you intend to completely enforce the 2016 Equal Access 
Rule?
    What role did you have in developing the 2019 proposed rule 
(RIN 2506-AC53) which would allow for legalized discrimination 
based on gender identity at HUD-funded shelters?
    What was the clearance process for this proposed rule? 
Please provide a list of the titles of all career HUD employees 
and names and titles of all appointed HUD employees involved 
and their role in developing and approving this proposed rule.
    Were you part of the clearance process? Please provide all 
emails from November 1, 2018, to May 22, 2019, in which you 
send, receive, or are copied on discussion of the proposed 
rule.
    Who at HUD was primarily responsible for drafting the 
proposed rule?
    Did you provide performance reviews to any of individuals 
referenced in question 2(a)? Did your performance reviews 
include discussion of their work on the proposed rule?
    Are there any aspects of the proposed rule that you 
disagree with or would like to be strengthened?
    Do you agree that the 2019 proposed rule would allow for 
discrimination based on gender identity at HUD-funded shelters?
    If you are not going to permit discrimination against 
transgender individuals, will you commit to not proceeding with 
the rulemaking process on RIN 2506-AC53?

A.3. HUD does not have a proposed rule that would ``allow for 
legalized discrimination.'' HUD has a draft rule that is 
currently under review by the Office of Management and Budget. 
It has not been proposed and therefore has not been sent to 
Congress for review. While I am limited in what I can say about 
a rule that is still under review, I can unequivocally assure 
you it would not permit discrimination in any manner. The other 
portions of your questions seek information about HUD's 
deliberative process or personnel matters.

Q.4. In May 2019, Secretary Carson told a Congressional 
committee he was ``not currently anticipating changing'' the 
Equal Access Rule. A day later HUD proposed the 2019 rule that 
would change the Equal Access Rule to allow discrimination 
against transgender individuals in HUD-funded shelters. This 
troubling reversal suggests a need to request more specific 
commitments from nominees.
    If confirmed, will you commit to enforcing existing 
restrictions on ``any discrimination against anybody based on 
sexual orientation or gender identity'' throughout your tenure 
as Assistant Secretary for Community Planning and Development?

A.4. Yes.

Q.5. If confirmed, will you commit to require HUD-subsidized 
shelters to allow individuals to use shelters services that are 
consistent with their gender throughout your tenure as 
Assistant Secretary for Community Planning and Development?

A.5. If confirmed, I commit to requiring HUD-subsidized 
shelters to allow individuals to use shelter services that are 
consistent with their gender, where required by law, throughout 
my tenure as Assistant Secretary for Community Planning and 
Development.

Q.6. How do you plan to consult with external advocates and 
experts, including organizations led by transgender 
individuals, on future HUD policies to ensure they will not 
have a discriminatory impact on transgender individuals?

A.6. If approved by OMB, this proposed rule will be open for 60 
days during which time all external advocates and experts will 
be free to comment on all aspects of the proposal. I look 
forward to reviewing and fully considering all such comments.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
          SENATOR CORTEZ MASTO FROM DAVID C. WOLL, JR.

Q.1. If confirmed, what steps do you plan to take to ensure 
Puerto Rico is receiving hurricane relief funding in a timely 
manner?

A.1. Currently, Puerto Rico has in place sufficient funding to 
address its unmet need. Specifically, the Commonwealth has 
access to approximately $1.5 billion in disaster recovery 
funds, of which it has spent less than 1 percent to date. If 
confirmed, I commit to continuing HUD's ongoing efforts to make 
additional funds available to Puerto Rico.

Q.2. What policies or programs do you plan to implement to 
ensure Puerto Rico is able to rebuild and stay resilient 
against future disasters?

A.2. Long-term recovery and enhancing the resiliency of Puerto 
Rico is already underway. HUD is committed to ensuring that 
Puerto Rico's infrastructure investments are designed to better 
withstand future impacts. HUD will also continue to encourage 
buyouts that move individuals to safer locations.

Q.3. Please explain how HUD will mitigate the affordable 
housing crisis?

A.3. See below.

Q.4. Where do you think we have an affordable housing crisis? 
Who is affected by the crisis?

A.4. In addition to HUD's existing programs that provide 
affordable housing--such as the Federal Housing Administration, 
public housing, Housing Choice Vouchers, and housing for the 
elderly and disabled--Secretary Carson is honored to serve as 
the Chair of the White House Council on Eliminating Regulatory 
Barriers to Affordable Housing. The Council is engaging with 
Governments at all levels and other private-sector stakeholders 
to identify and remove obstacles that raise the costs of 
affordable housing development and contribute to shortages in 
America's housing supply.

Q.5. Will you ensure that the 2021 HUD budget request is 
adequate to ensure all individuals and families currently 
receiving assistance can continue to do so?

A.5. Yes. In each of the prior three fiscal years, the 
Administration's Budget proposal has requested a funding level 
for HUD that would allow all individuals and families currently 
receiving HUD assistance to continue to do so. If confirmed, I 
commit to you that whatever resources Congress sees fit to 
provide to HUD, I will utilize those resources wisely and 
efficiently to help those most in need.

Q.6. Will you ensure that the 2021 HUD budget request will help 
address the waitlist backlog and ensure than hundreds of 
thousands of eligible families can receive housing assistance?

A.6. Each year, HUD continues to spend more and more money to 
house the same number of individuals and families. If 
confirmed, I look forward to working with you and your staff on 
ways to address these issues by identifying and removing 
obstacles that impede access to, and production of, affordable 
homes nationwide among all Americans.

Q.7. What changes are you considering, if any, to the Housing 
Trust Fund?

A.7. Only Congress can make changes to the Housing Trust Fund.

Q.8. How will HUD help low-income families with children who 
cannot find an affordable home in a safe community with good 
schools?

A.8. HUD has a number of rental assistance programs--like 
Public Housing, Housing Choice Vouchers, Project-Based Rental 
Assistance, and Tenant-Based Rental Assistance--as well as home 
ownership programs supported by the Federal Housing 
Administration to help low-income families with children who 
cannot find an affordable home in a safe community with good 
schools.

Q.9. How will you protect transgender individuals' access to 
emergency shelters and housing assistance programs that ensures 
their dignity and respect?

A.9. I am committed to ensuring that all persons seeking access 
to HUD's programs may do so without discrimination. HUD's 2012 
equal access rule prohibits discrimination against sexual 
orientation and gender identity. Shelter providers must 
establish policies that are consistent with all Federal, State, 
and local laws that ensure nondiscriminatory practices.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR JONES
                    FROM DAVID C. WOLL, JR.

Q.1. As you know, HUD offices monitor how grantees use Federal 
funds. Sometimes these monitors can result in the HUD office 
requesting funds to be returned. Organizations can appeal this 
decision. As Assistant Secretary of Community Planning and 
Development these complaints can come to your office. Do you 
believe that organizations, particularly nonprofit 
organizations, should return funds over local administrative 
differences?

A.1. HUD has a fiduciary obligation to protect taxpayers and 
ensure responsible administration of its grants. In cases of 
alleged or apparent misuse of funds, HUD will thoroughly 
investigate the matter and take appropriate action based on the 
specific circumstances and facts. As you noted, there is also 
an appeal process that provides organizations with an 
opportunity to present any additional facts before a final 
determination is made. If confirmed, I will commit to 
considering all relevant information presented by grantees 
before any final determinations are made concerning the return 
of funds.

Q.2. I am happy to hear the work the Office of Community 
Planning and Development is doing to effectively respond to 
disasters around the country. In Alabama, we were hit with 
tornadoes in Lee County and were fearful of hurricanes hitting 
soon after as well. What plans do you have in place for areas 
that face repeated natural disasters in a short period of time.

A.2. HUD has supported several recent efforts to address the 
needs of areas that face repeated disasters over a short period 
of time, including allowing grantees impacted by Hurricanes 
Matthew and Florence to interchangeably use CDBG-DR funds 
received for these respective disasters. HUD has also 
implemented a new requirement that allows certain grantees to 
use their CDBG-DR administrative funds interchangeably for 
recovery from multiple disasters. HUD's recently published 
mitigation notices direct grantees to fund mitigation 
activities within the framework of FEMA-identified community 
``lifelines,'' or those infrastructure and other sectors that 
must continue to operate following a disaster in order for 
long-term recovery to commence.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                       FROM JOHN BOBBITT

Q.1. A recent IG report stated that HUD lost 18.5 percent of 
its staff over the last decade, more than any other cabinet-
level agency, and that this reduction in staff affected all 
many, if not all, of HUD's top management challenges.
    If confirmed, what are the first steps you will take to 
address understaffing?

A.1. HUD is making great strides in improving our hiring:

  <bullet>  In FY17, time to hire was 163 days and HUD lost 726 
        employees.

  <bullet>  In FY18, time to hire improved to 113 days and HUD 
        lost 595 employees.

  <bullet>  In FY19, time to hire dropped to 102 days 
        (factoring out the lapse in appropriations) and HUD 
        added a net gain of 17 employees overall.

    In addition, HUD hired more than 1,000 employees for the 
first time in nearly a decade. We are trending in the right 
direction. If confirmed, I will work to improve this record by 
utilizing Business Process Reengineering (BPR) to identify 
problems and reduce time and steps in the process.
    Additionally, the BPR process will be used to evaluate our 
current shared services provider verses finding a better 
performing vendor or moving this process back internally. 
Service Level Agreements (SLA) will also be evaluated as well 
as hiring policies that cause delays in hiring. Finally, hiring 
managers will be held accountable for moving the process along 
efficiently.

Q.2. How will you prioritize addressing staffing shortages in 
HUD's many offices?

A.2. Prioritization will be based on shortages to mission 
critical functions such as program offices that oversee rental 
assistance, disaster recovery, and homelessness programs.

Q.3. As Assistant Secretary for Administration, would you 
recommend that HUD hire or promote an individual if a Federal 
Inspector General's report had previously found that that 
individual may have abused their authority, may have misused 
their position for private gain, and had created an appearance 
of a violation of the Standards of Ethical Conduct for 
Employees of the Executive Branch?

A.3. If confirmed as the Assistant Secretary for 
Administration, it would not be my role to recommend hiring or 
not hiring for most positions.
                                ------                                


         RESPONSES TO WRITTEN QUESTIONS OF SENATOR REED
                       FROM JOHN BOBBITT

Q.1. This year, President Trump proposed cutting $12 billion in 
affordable housing and economic development programs. This 
included requesting no money at all for HOME and the Community 
Development Block Grant Program.
    Do you support these proposed cuts?
    If not, what will you do to advocate for HOME and the 
Community Development Block Grant before the President submits 
his budget request for Fiscal Year 2021?

A.1. I have no position on this matter. My expertise is in 
operations, not policy, and the position for which I am 
nominated has no bearing or influence on budget issues.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                       FROM JOHN BOBBITT

Q.1. The HUD Inspector General October 2018 Top Management 
Challenges report found, ``Constant turnover and extended 
vacancies in many of HUD's most important political and career 
executive positions have created leadership gaps, which have 
led to poor management decisions and questionable execution of 
internal business functions.'' In your written testimony you 
stated you will decrease the time it takes to hire at HUD and 
reduce the risks associated with critical vacancies.
    How are you planning to reduce the time it takes to hire at 
HUD?

A.1. HUD is making great strides in improving our hiring:

  <bullet>  In FY17, time to hire was 163 days and HUD lost 726 
        employees.

  <bullet>  In FY18, time to hire improved to 113 days and HUD 
        lost 595 employees.

  <bullet>  In FY19, time to hire dropped to 102 days 
        (factoring out the lapse in appropriations) and HUD 
        added a net gain of 17 employees overall.

    In addition, HUD hired more than 1,000 employees for the 
first time in nearly a decade. We are trending in the right 
direction. If confirmed, I will work to improve this record by 
utilizing Business Process Reengineering (BPR) to identify 
problems and reduce time and steps in the process.
    Additionally, the BPR process will be used to evaluate our 
current shared services provider verses finding a better 
performing vendor or moving this process back internally. 
Service Level Agreements (SLA) will also be evaluated as well 
as hiring policies that cause delays in hiring. Finally, hiring 
managers will be held accountable for moving the process along 
efficiently.

Q.2. What current vacancies do you consider particularly 
critical?

A.2. Deputy Secretary, Assistant Secretary for the Office of 
Community Planning and Development, President of the Government 
National Mortgage Association, and Assistant Secretary for the 
Office of Administration.

Q.3. What do you consider the risks associated with critical 
vacancies?

A.3. Senior-level vacancies create a leadership void that can 
lead to lower morale and contribute to a lack of clear vision 
of HUD's mission. Vacancies at the mid to lower level of 
employees can affect our ability to deliver services to the 
people HUD serves.

Q.4. How do you plan to reduce those risks, and, if not by 
filling the vacancies, what analysis are you relying on to 
justify any measures other than filling existing vacancies?

A.4. There is only one long-term answer: fill the positions. 
The culture of an organization can carry it over rough times 
but not indefinitely. Analysis is not a substitute for action 
and leadership.

Q.5. What are your plans to expeditiously fill extended 
vacancies?

A.5. Please see response to Answer 1 above.

Q.6. What is your analysis for why there is constant turnover 
at HUD, and how do you plan to address this?

A.6. Turnover in any organization can generally be attributed 
to morale. Morale can be affected by vacant leadership 
positions. If confirmed, I will foster a positive culture that 
recognizes employees, practices respect for the individual, 
empowers them, and provides the training and tools necessary 
for career development. I have implemented a new culture in 
Housing Operations that includes an open-door policy, core 
values, empowerment at every level of the organization and a 
new employee training and development program.

Q.7. The Federal Employee Viewpoint Scorecard measures employee 
perceptions of their agencies. In the 2018 scorecard:
    Less than half of HUD employees reported agreeing or 
strongly agreeing that they have sufficient resources to get 
their jobs done. Why do you think that perception exists, and 
how will you address it?

A.7. It can be attributed to employees not having the resources 
they need to perform their work. This will require a deeper 
analysis by program area to find out specifically what 
resources are lacking.

Q.8. Less than half of HUD employees reported agreeing or 
strongly agreeing that their work unit is able to recruit 
people with the right skills. Why do you think that perception 
exists, and how will you address it?

A.8. As discussed previously, the hiring process requires 
attention to shorten the process and ensure we are hiring 
qualified personnel.

Q.9. Only around half--51.1 percent--of HUD employees reported 
agreeing or strongly agreeing that arbitrary action, personal 
favoritism, and coercion for partisan political purposes are 
not tolerated. Why do you think that percentage isn't higher, 
and how will you address it?

A.9. I will address this by having an open-door policy to allow 
employees to talk privately to all levels of management as well 
as quarterly recognition and communication meetings.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR BROWN
                     FROM PETER J. CONIGLIO

Q.1. Fraud Prevention and Reporting--If confirmed, how will you 
promote fraud prevention efforts at the Bank?

A.1. If confirmed, I would restore a sense of regular order to 
the Office of Inspector General. I would also let it be known 
that the Ex-Im OIG has an ``open-door'' policy for those who 
believe that they have information on possible wrongdoing at 
Ex-Im, especially related to potentially fraudulent activities; 
that they will be respected; and that they will be taken 
seriously and afforded every protection under the law. My 
ultimate objective would be to inform all of Ex-Im's employees, 
regardless of their division, that the door of Ex-Im's Office 
of Inspector General is open to them.
    I would also like to review three areas highlighted in the 
OIG's last two Semi-Annual Reports to Congress: (a) the ``Fraud 
Awareness Training and Outreach'' program; (b) the review of 
Ex-Im's compliance with the challenges of Enterprise Risk 
Management and internal agency controls; and (c) the Suspension 
and Debarment Initiative. I know that there is always room for 
improvement, and I would like to determine if any of these need 
to be made more robust. For example, in conjunction with the 
Office of Inspector General's Whistleblower Coordinator, adding 
an ``Outreach to Whistleblowers'' training segment to the Fraud 
Awareness Training program if such a training segment does not 
currently exist. Through my review of these three programs, 
particularly regarding fraud awareness outreach, I will 
establish a baseline understanding of what needs to be done to 
further educate about fraud prevention efforts.

Q.2. The Ex-Im Inspector General's office was established 12 
years ago. During that time, there has been a single case of 
fraud related to the Bank's credit assistance that involved a 
Bank employee, but some interest groups have falsely cited the 
number of investigation opened by OIG as evidence of fraudulent 
activity within the Ex-Im Bank's credit programs. Former Acting 
Inspector General Terry Settle in a letter to the Committee's 
leadership on October 31, 2017, correctly pointed out that 
``not all claims included in a case under investigation are 
necessarily fraudulent until proven to be so by evidence 
developed in the investigation.''
    In semi-annual reports, other reporting, testimony or 
public statements, will Ex-Im's Office of the Inspector General 
(OIG) under your leadership:
    Clearly identify any instances of fraud or misconduct by a 
Bank employee that are related to Ex-Im's credit assistance,

A.2. If confirmed, and knowing that every situation is 
different, I would consult with Ex-Im OIG Counsel and the OIG's 
professional staff concerning what information on closed 
investigations can be made public, including instances of fraud 
or misconduct proven to be committed by an Ex-Im employee. The 
public release of information related to open investigations is 
limited by privacy and confidentiality restrictions.

Q.3. provide clarity that the referral of a claim to the OIG or 
the opening of the investigation by the OIG does not establish 
the existence of fraud?

A.3. If confirmed, and knowing that every situation is 
different, I would consult with Ex-Im OIG Counsel and the OIG's 
professional staff concerning what information can be made 
public. I do believe it is important to clarify that the 
existence of an investigation does not affirm the presence of 
improper activity or illegality and I would do my best to share 
that.

Q.4. Environmental and Social Due Diligence--In 2015, the Ex-Im 
OIG issued a report that documented shortcomings in the Bank's 
monitoring of the environmental and social performance of a 
project. That report's recommendation resulted in Ex-Im 
creating a formal mechanism to resolve complaints by parties 
who report they are adversely affected by Bank-funded projects.
    If confirmed, will you continue to monitor Ex-Im's 
adherence to required environmental and social due diligence 
procedures?

A.4. If confirmed, I can commit that the Ex-Im OIG will be 
vigilant in its review and monitoring of Ex-Im's adherence to 
its mission, as outlined in the law. I understand that the Ex-
Im OIG has previously conducted reviews of Ex-Im-financed 
projects and assessments of how Ex-Im has implemented its 
environmental and social due diligence procedures in those 
projects.
    As I assess the priorities of the OIG, I would be pleased 
to work with your office to better understand any specific 
concerns you may have regarding Ex-Im's environmental and 
social due diligence procedures. In the case where the OIG is 
informed about a complaint relating to Ex-Im's implementation 
of its environmental and social procedures and guidelines, I 
would take the complaint seriously and follow the facts 
wherever they may lead.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR WARREN
                     FROM PETER J. CONIGLIO

Q.1. Please describe how your experience working in the Office 
of Inspector General (OIG) for the General Services 
Administration (GSA) has informed your views on the roles of 
IGs and the importance of IG independence.

A.1. Since June 2006, I have served in the Office of Inspector 
General (OIG) at the General Services Administration (GSA) 
working for three Inspectors General (IGs)--one appointed by 
President George W. Bush--one appointed by President Barack 
Obama--and our Deputy IG, who served as our Acting IG. All 
three made positive contributions to the GSA OIG and I have 
learned from all of them. They have made me keenly aware of the 
key role an Office of Inspector General plays in an agency's 
success. In addition, they set the bar high in modeling IGs who 
defend an OIG's independence.
    My service in several different senior positions with the 
GSA OIG also has provided me a tutorial on how to be an 
effective Inspector General.
    In addition to my present position as the Special Assistant 
and Counselor to the Assistant Inspector General for Auditing, 
for almost 4 years, I headed the OIG's compliance office that 
reported directly to the GSA Inspector General. The office 
reviewed the OIG's internal audit and investigative operations, 
including site visits to regional OIG offices. Our objective 
was to ascertain whether an OIG office complied with the 
standards established for the audit and investigative 
disciplines. The internal review of OIG functions affected how 
our offices would conduct themselves in accordance with the 
mandates of the Inspector General Act, as amended, along with 
other relevant statutes.
    From that position, I stood up the OIG's first-ever audit 
report writing and editing team. As lead editor, I oversaw the 
production of the OIG's Office of Audits' audit reports, which 
are an OIG's first-line of communication with its agency. Our 
objective was to produce a readable--written in plain 
language--objective, usable audit report. It is important that 
agency leaders have understandable recommendations that they 
can, in turn, use to improve its operations and programs. Our 
team was rewarded for our efforts with an Inspector General's 
award.

Q.2. If you are confirmed, will you commit to maintaining such 
independence at the Export-Import (Ex-Im) Bank?

A.2. If confirmed, I am committed to an Ex-Im OIG that will 
adhere to the mandates of the Inspector General Act, as 
amended, along with any other relevant statutes, including 
vigorously defending the independence and objectivity of the 
Ex-Im OIG.

Q.3. Do you support the mission of and commit to ensuring that 
the Ex-Im Bank operates at full capacity?

A.3. If confirmed, I would not bring any preconceived bias or 
animus to my position as Inspector General of Ex-Im. IGs were 
not established to ``run'' agencies. IGs were established to be 
an asset to an agency's leadership by working to identify and 
address fraud, waste, and abuse; to help an agency fulfill its 
mission--whatever that mission may be--and to be successful in 
doing so. An OIG is not an agency's enemy or adversary.

Q.4. Describe the role of the IG in enforcing the Ex-Im Bank's 
environmental and social due diligence procedures.

A.4. If confirmed, I will ensure the Ex-Im OIG will continue to 
review and monitor Ex-Im for its adherence to its mission as 
established by the law, with the primary goal of rooting out 
fraud, waste, and abuse in accord with the Inspector General 
Act, as amended. Based on any findings during a review, audit, 
or investigation, the Ex-Im OIG would then make specific 
recommendations in its reports to Ex-Im that would be intended 
to improve Ex-Im operations or programs. In the case where the 
OIG is informed about a complaint relating to Ex-Im's 
implementation of its environmental and social procedures and 
guidelines, I would take the complaint seriously and follow the 
facts wherever they may lead.

Q.5. Do you commit to conducting rigorous oversight to ensure 
that the environmental, social, and project-related costs of 
transactions are adequately assessed before Ex-Im enters into a 
transaction?

A.5. As I assess the priorities of the OIG, I would be pleased 
to work with your office to better understand any specific 
concerns you may have regarding Ex-Im's environmental and 
social due diligence procedures. In the case where the OIG is 
informed about a complaint that Ex-Im has not properly assessed 
the costs of potential transactions, I would take the complaint 
seriously and follow the facts wherever they may lead.

Q.6. Do you commit to ensuring that all Environmental and 
Social Impact Assessments are made available to the public in a 
timely manner?

A.6. As I assess the priorities of the OIG, I would be pleased 
to work with your office to better understand any specific 
concerns you may have regarding the public availability of 
Environmental and Social Impact Assessments. In the case where 
the OIG is informed that Ex-Im is not acting in accordance with 
applicable statutory mandates or its environmental and social 
procedures and guidelines, I would take the complaint seriously 
and follow the facts wherever they may lead.
                                ------                                


               RESPONSES TO WRITTEN QUESTIONS OF
          SENATOR CORTEZ MASTO FROM PETER J. CONIGLIO

Q.1. Can you discuss the ombudsman process where possible 
problems with environmental or other issues with investments 
could be discussed? Where would the Inspector General get 
involved in potential complaints?

A.1. If confirmed, I will ensure that the Ex-Im OIG will 
continue to review and monitor Ex-Im for its adherence to its 
mission as established by the law, with the primary goal of 
rooting out fraud, waste, and abuse. Based on any findings 
during a review, audit, or investigation, the Ex-Im OIG would 
then make specific recommendations in its reports to Ex-Im with 
a goal of improving Ex-Im operations or programs. In a case 
where the OIG is informed about a complaint relating to Ex-Im's 
implementation of its environmental and social procedures and 
guidelines, I would take the complaint seriously and follow the 
facts wherever they may lead.

Q.2. Some have recommended prohibiting Export-Import Bank 
financing for any U.S. firm selling to a company owned by the 
Chinese Government. What role do you see the OIG's involvement 
in discussing the impact of such a prohibition be on U.S. 
companies and on China?

A.2. If confirmed, the Ex-Im OIG will adhere to its mandate as 
outlined in the Inspector General Act, as amended, along with 
any relevant guidance provided by the Council of Inspectors 
General on Integrity and Efficiency.
    Ex-Im OIG must defer to Congress and the Administration to 
resolve any policy issue, such as the potential prohibition on 
certain types of financing described above. As I understand the 
mission of the OIG, it would generally be beyond the scope of 
its statutory responsibilities to evaluate the potential 
ramifications of implementing such a prohibition. If Congress 
passed a statutory mandate, and I was aware of concerns about 
Ex-Im's compliance with the mandate, I would take the concerns 
seriously and follow the facts wherever they may lead.

Q.3. Seventy-five environmental activists sent a letter 
recommending that the Ex-Im Bank should fully comply with the 
requirements of the Endangered Species Act (ESA). Scientists 
say that one million species around the world face extinction 
in the coming decades due to climate change and other human 
activities. How will the OIG consider sharing information about 
the impact of the Export-Import Bank's funding of projects that 
could hasten the extinction of the 650 endangered and 
threatened foreign plants and wildlife?

A.3. If confirmed, I will ensure that the Ex-Im OIG will 
continue to review and monitor Ex-Im for its adherence to the 
law, with the primary goal of rooting out fraud, waste, and 
abuse in accordance with the Inspector General Act, as amended. 
In a case where the OIG is informed about a complaint relating 
to Ex-Im's implementation of its environmental and social 
procedures and guidelines, I would take the complaint seriously 
and follow the facts wherever they may lead.

Q.4. Despite the mandate to devote at least 10 percent of Ex-
Im's aggregate financing to renewable energy exports, the Bank 
has consistently fallen short of this target. Will the OIG 
report on the Bank's goals to meet this target? Will the OIG 
recommend ways that the Bank can meet this target?

A.4. If confirmed, I will ensure that the Ex-Im OIG will 
continue to review and monitor Ex-Im for its adherence to the 
law, with the primary goal of rooting out fraud, waste, and 
abuse. Based on any findings during a review, audit, or 
investigation, the Ex-Im OIG would then make specific 
recommendations in its reports to Ex-Im with a goal of 
improving Ex-Im operations or programs. In a case where the OIG 
is informed about a failure by Ex-Im to comply with its 
statutory mandates, I would take the complaint seriously and 
follow the facts wherever they may lead. When the OIG 
undertakes such a review, I think it is critical that it 
provide recommendations that are usable and productive for the 
agency.

Q.5. The Export-Import Bank requires projects have an 
independent contractor monitor the development during and after 
construction. The Ex-Im Bank also operates an online portal for 
complaints. Some advocates say that the online portal lacks an 
independent accountability mechanisms. They say it does not 
have a dispute resolution function that brings the parties 
together to find a mutually agreeable solution to the 
community's grievances.
    Do you think a more effective complaints mechanism is 
needed? If so, what would it entail?

A.5. While I am aware of this particular method for filing 
complaints, as I am not currently with Ex-Im OIG, I do not have 
a detailed knowledge of the operation of this particular tool. 
If I am confirmed, I would be pleased to meet with you or your 
staff to discuss your concerns about this matter.

Q.6. What role could you add to the Bank's complaint mechanism 
for the Office of Inspector General?

A.6. While I am aware of this particular method for filing 
complaints, as I am not currently with Ex-Im OIG, I do not have 
a detailed knowledge of the operation of this particular tool. 
If I am confirmed, I would be pleased to meet with you or your 
staff to discuss your concerns about this matter.
                                ------                                


        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SINEMA
                     FROM PETER J. CONIGLIO

Q.1. Ex-Im is critical to Arizona's economy and U.S. global 
competitiveness, which means we need it running as effectively 
and efficiently as possible. As Inspector General, how do you 
plan to improve management and accountability at the Bank?

A.1. If confirmed, I am committed to ensuring that the Ex-Im 
OIG will be fully functioning, objective, and independent. The 
Ex-Im OIG will review and monitor Ex-Im for its adherence to 
the law, with the primary goal of rooting out fraud, waste, and 
abuse. Based on any findings during a review, audit, or 
investigation, the Ex-Im OIG would then make specific 
recommendations in its reports to Ex-Im that would be intended 
to improve Ex-Im operations or programs.
              Additional Material Supplied for the Record
  LETTER SUBMITTED BY THE MORTGAGE BANKERS ASSOCIATION IN SUPPORT OF 
                          BRIAN D. MONTGOMERY
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

LETTER SUBMITTED BY THE NATIONAL ASSOCIATION OF REALTORS IN SUPPORT OF 
                          BRIAN D. MONTGOMERY
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
